<html>
<title> - UNITED STATES SPECIAL OPERATIONS COMMAND'S EFFORTS TO TRANSFORM THE FORCE FOR FUTURE SECURITY CHALLENGES</title>
<body><pre>[Senate Hearing 115-859]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-859

                    UNITED STATES SPECIAL OPERATIONS
                     COMMAND'S EFFORTS TO TRANSFORM
                     THE FORCE FOR FUTURE SECURITY
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   EMERGING THREATS AND CAPABILITIES
                   
                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


                 Available via: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-266 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

COMMITTEE ON ARMED SERVICES
                      
                      JOHN McCAIN, Arizona, Chairman

                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director
                 
                 
>_________________________________________________________________

           Subcommittee on Emerging Threats and Capabilities

JONI ERNST, Iowa, Chairman	    MARTIN HEINRICH, New Mexico
ROGER F. WICKER, Mississippi	    BILL NELSON, Florida
DEB FISCHER, Nebraska		    JEANNE SHAHEEN, New Hampshire
DAVID PERDUE, Georgia		    GARY C. PETERS, Michigan
TED CRUZ, Texas
TIM SCOTT, South Carolina           

                                  (ii)

  

                            C O N T E N T S

_________________________________________________________________

                             April 11, 2018

                                                                   Page

United States Special Operations Command's Efforts to Transform       1
  the Force for Future Security Challenges.

Howell, Lieutenant General Scott A., USAF, Vice Commander, U.S.       3
  Special Operations Command.
Webb, Lieutenant General Marshall B., USAF, Commander, U.S. Air       4
  Force Special Operations Command.
Tovo, Lieutenant General Kenneth E., USA, Commanding General,         9
  U.S. Army Special Operations Command.
Szymanski, Rear Admiral Timothy G., USN, Commander, Naval Special    15
  Warfare Command.
Mundy, Lieutenant General Carl E., III, USMC, Commander, Marine      20
  Corps Forces Special Operations Command.

                                 (iii)

 
                    UNITED STATES SPECIAL OPERATIONS
                     COMMAND'S EFFORTS TO TRANSFORM
                THE FORCE FOR FUTURE SECURITY CHALLENGES

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                  United States Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SR-232A, Russell Senate Office Building, Senator Joni 
Ernst, chairman of the subcommittee, presiding.
    Members present: Senators Ernst, Wicker, Fischer, Sullivan, 
Heinrich, and Peters.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Good morning. It is 10 hundred, or 10 
o'clock. For all of the folks here, I want to thank you for 
attending this morning's Emerging Threats and Capabilities 
Subcommittee. We will go ahead and start.
    Just to let our audience know, we will be in open session 
for a period of time. We will then be required to go into a 
closed session, and we'll need to move locations. The closed 
session location, for our panelists, will be SVC-217. That, 
again, will be at the closing of the open session. So, we'll 
remind you again here in 40 to 45 minutes or so.
    Good morning. I am Senator Joni Ernst, from Iowa. We will 
meet today to receive testimony from Special Operations 
Command, or SOCOM, senior leaders on efforts to transform the 
Special Operations Force for future security challenges. I 
believe this is the first time we have had all of our SOCOM 
component commanders before this committee, and we welcome you 
gentlemen here.
    I would like to introduce all of you very briefly, and then 
I'll make some opening statements, and Senator Heinrich will 
also make some opening statements before we begin with your 
testimony.
    We have with us Lieutenant General Scott A. Howell, United 
States Air Force, Vice Commander, United States Special 
Operations Command--thank you, sir; Lieutenant General Kenneth 
E. Tovo, United States Army, Commanding General, United States 
Army Special Operations Command; Lieutenant General Marshall B. 
Webb, United States Air Force, Commander, USAF Special 
Operations Command; Rear Admiral Timothy G. Syzmanski, United 
States Navy, Commander, Naval Special Warfare Command; and 
Major General Carl E. Mundy III, United States Marine Corps, 
Commander, Marine Corps Special Operations Command.
    Gentlemen, again, want to thank you very much for being 
here today.
    The National Defense Strategy reoriented the way the 
Department of Defense prioritizes its efforts in an 
increasingly complex and dangerous global security environment. 
A rising China and an increasingly belligerent Russia are now 
the Department's top strategic priorities, while Iran, North 
Korea, and countering violent extremism remain enduring lines 
of effort.
    Over the last 16-plus years, SOCOM has largely focused its 
efforts on executing its role as a leader in the global 
counterterrorism fight. As a result, SOCOM's organization, 
tactics, techniques, procedures, and its development of 
capabilities has reflected this mission set. While it's clear 
that counterterrorism will remain a persistent mission of SOF 
[Special Operations Forces], the severity of the threat posed 
by China, Russia, and other adversarial nation-states demand 
increased attention by our Nation's most agile and innovative 
force to ensure they're postured to fight and win.
    In testimony earlier this year before this committee, 
General Tony Thomas, Commander of SOCOM, stated that, ``As we 
focus on today's operations, we must be equally focused on 
required future transformation. SOF must adapt, develop, 
procure, and field new capabilities in the interest of 
continuing to be a unique, lethal, and agile part of the joint 
force of tomorrow.'' In particular, he identified emerging 
technologies, such as, ``Cyber, next-generation, low-observable 
infiltration platforms, airborne high-energy laser 
applications, automation, and machine learning as capabilities 
key to future success on the battlefield.''
    I look to our witnesses to describe what they're doing to 
support General Thomas's transformation priorities, as well as 
implement the new National Defense Strategy. Specifically, I 
want our witnesses to provide their assessment of the future 
operating environment likely to confront their forces, as well 
as provide a description of what they are doing to ensure their 
forces are organized, trained, and equipped to succeed.
    With that, Senator Heinrich.

              STATEMENT OF SENATOR MARTIN HEINRICH

    Senator Heinrich. Thank you.
    Let me start by just thanking Senator Ernst for holding 
this hearing on the efforts of SOCOM's service component 
commands to transform our Special Operations Forces for the 
missions that they may be asked to conduct in the future.
    New Mexico is the proud home to a significant AFSOC [U.S. 
Air Force Special Operations Command] presence. But, to be 
transparent, I would welcome any of your components in the 
future.
    Since 9/11, the vast majority of special operations 
activities have really been focused on defeating al-Qaeda and 
on defeating ISIS [Islamic State of Iraq and Syria] while 
seeking to prevent the emergence of other violent extremist 
groups. However, the recently released National Defense 
Strategy, or NDS, states that the central challenge facing our 
Nation is the reemergence of long-term strategic competition 
with Russia and China, and that this competition replaces 
terrorism as the primary concern in national--U.S. national 
security. This strategic prioritization raises some pretty 
important questions with respect to the readiness of our 
Special Operations Forces to conduct the most sensitive and, in 
many cases, highest-risk missions tasked to the military. Our 
Special Operations Forces will surely continue to play a 
central role in addressing the threat posed by violent 
extremist groups, but are also increasingly likely to be 
engaged in so-called hybrid warfare or gray-zone conflict, 
below the threshold of traditional armed conflict. The current 
demand for special operations capabilities already outstrips 
supply. Under the new NDS, such capabilities are likely to be 
stretched even further. Just last year, the SOCOM Commander, 
General Thomas, stated that, ``Most SOF units are employed to 
their sustainable limit.''
    In the coming years, I understand that SOCOM is on track to 
grow by approximately 2,000 personnel, to reach a size of about 
72,000 overall. While this growth will help ease the burden, to 
some degree, we need to be thoughtful in our employment of 
Special Operations Forces, to preserve the readiness of our 
highest-demand, lowest-density capabilities. This will require 
careful prioritization by senior military leadership in coming 
years.
    While Special Operations Forces retain the capability to 
operate in sensitive environments, some core skills, including 
foreign language proficiency, may need to be reemphasized in 
their training. Additionally, new secure communications, 
intelligence-gathering, directed energy, and nonlethal weapons 
capabilities may also be required for our Special Operations 
Forces to be successful. The growing use of social media and 
other means of communication by both state and nonstate actors 
to influence vulnerable populations is also a concern for the 
special operations enterprise.
    I note that SOCOM is the joint proponent for military 
information support operations and has been directed by the 
Secretary of Defense to establish a centralized global 
messaging/counter-messaging capability. I'm pleased to see the 
Department taking these challenges seriously, but I believe we 
must also fundamentally reevaluate the training and readiness 
of our military information support or psychological operations 
personnel to maximize their effectiveness. Our adversaries have 
demonstrated innovation and flexibility in the information 
environment, and we must find a way to move beyond the 
traditional leaflets-and-loudspeakers approach to keep pace.
    I look forward to hearing from each of you.
    Senator Ernst. Thank you, Senator.
    We will start with Lieutenant General Howell. Sir, if you 
would, please.

  STATEMENT OF LIEUTENANT GENERAL SCOTT A. HOWELL, USAF, VICE 
           COMMANDER, U.S. SPECIAL OPERATIONS COMMAND

    Lieutenant General Howell. Chairwoman Ernst, Ranking Member 
Heinrich, distinguished members of the committee, good morning, 
and thank you for the opportunity to meet with you today.
    As the Vice Commander for U.S. SOCOM, I'm honored to 
represent General Thomas and your United States Special 
Operations Command alongside our component commanders. We 
greatly appreciate the opportunity to discuss the Command's 
efforts to transform against the emerging threats and 
capabilities of our adversaries, with a particular focus on 
near-peer competitors.
    As General Thomas testified in February, your U.S. Special 
Operations Forces are relevant against all our country's 
national security priorities. With nearly 8,000 members 
deployed in over 90 countries, our forces are postured, ready, 
and relentlessly focused on winning today's fights. From 
countering violent extremism to countering weapons of mass 
destruction, from rogue regimes to near-peer adversaries, 
Special Operations Forces continue to provide the geographic 
combatant commanders options to protect our Nation, our allies, 
and our interests worldwide.
    However, as the National Defense Strategy outlines, the 
global security environment is rapidly changing. 
Correspondingly, SOCOM is transforming at an ever-increasing 
pace. Today, you'll hear from each of our service component 
commanders on how their commands are meeting the challenge.
    Comprising just 2 percent of the defense budget and 3 
percent of the manpower, Special Operations Forces play a 
critical role in addressing the Nation's priority security 
challenges and provide an extraordinary return on investment. 
But, as one of ARSOF [U.S. Army Special Operations Forces] 
truths state, most special operations require non-SOF 
assistance. The additional support the military departments 
provide to each of our service components, estimated about $8 
billion annually, plays an essential role in the success of our 
force.
    The continued support and trust of this committee to U.S. 
SOCOM and our service components and the military departments 
has been crucial in maximizing these dividends.
    Madam Chairwoman, you've already introduced my colleagues 
here alongside us. I will just say, these commanders provide 
superior leadership to their respective organizations and a 
clear vision for the transformation required to ensure special 
operations remains at the forefront in addressing emergency--
emerging threats and capabilities.
    Pending any immediate questions for me, I'll ask each 
component commander to provide brief remarks to the committee. 
We look forward to the discussion.
    Senator Ernst. Thank you, General.
    General Webb.

    STATEMENT OF LIEUTENANT GENERAL MARSHALL B. WEBB, USAF, 
      COMMANDER, U.S. AIR FORCE SPECIAL OPERATIONS COMMAND

    Lieutenant General Webb. Chairwoman Ernst, Ranking Member 
Heinrich, distinguished members of the committee, I'm honored 
to appear before you as the Commander of Air Force Special 
Operations Command and your superb Air Commandos. Today, I will 
discuss AFSOC's efforts to ensure lethal readiness and 
relevance against the full spectrum of our Nation's potential 
adversaries.
    As United States Special Operations Command's air 
component, we continuously strive to hone capabilities and 
evolve our force to remain ready, relevant, and resilient, our 
three AFSOC priorities.
    I want to express my gratitude for the resources projected 
in Presidential Budget 2019, as these will fully fund our 
current requirements and will help us turn a strategic corner 
as we engage in great-powers competition. In line with the 
National Defense Strategy, AFSOC has the duty and opportunity 
to shape specialized airpower to accentuate both the far low 
end and high end of the conflict spectrum.
    As General Thomas testified before your committee 2 months 
ago, Special Operations' unique capabilities are in high demand 
across the globe. For 17 years, AFSOC has been laser focused on 
counterterrorism operations. This has accelerated the AFSOC 
operations tempo and has drawn our efforts towards the low end 
of the conflict spectrum. We realize these efforts are 
predominantly long-term engagements in which cumulative 
tactical effects lead to long-term strategic impact. To make 
such engagements successful, AFSOC must lower the resource and 
opportunity costs of conducting persistent counterterrorism 
operations. Conversely, AFSOC operations on the high end are 
predominantly those that deliver strategic impact in a short 
amount of time. AFSOC must be capable and flexible in order to 
confront competitors across the range of potential conflicts 
and areas. We must develop a force that is more lethal and 
resilient in contested environments.
    This brings me to AFSOC's first priority: readiness. AFSOC 
must build full-spectrum readiness while ensuring that we are 
postured to fight tonight. We are invested in virtual, 
adaptive, and realistic training to build readiness beyond 
traditional means. Using virtual reality to integrate live 
training environments with simulators reduces training costs, 
lowers personnel tempo, and engages us to realistically 
exercise high-end mission sets. Likewise, AFSOC's conducted 78 
joint exercises and training events with partner nations in 
2017, including our capstone exercise, the recently concluded 
Emerald Warrior. These events focus on providing complex 
integration and realistic operational problem sets.
    AFSOC remains postured to deter, compete, and win against 
strategic competitors via our second priority: relevance. To 
meet the challenges enumerated in the National Defense 
Strategy, AFSOC must cultivate a balanced force for high-end 
and low-end conflict by investing in new capabilities while 
leveraging current capabilities in innovative ways. This 
strategy aims to balance and expand AFSOC relevance across the 
spectrum of conflict to deter and, if necessary, defeat 
America's adversaries. AFSOC embraces the process of innovation 
from within our formation, striving towards a balance of 
incremental and transformational efforts that are cost-
effective and that extend strategic purpose.
    Finally, our third priority is resiliency. What defines 
AFSOC is not technology or platforms. Rather, we are defined by 
our people--Active Duty, Guard, Reserve, and civilians, alike--
and the relentless application of our ethos and strategic 
values. Tomorrow's fight is unknowable, but one thing is for 
certain: It must be an integrated joint venture, where our 
creative concepts will win out. AFSOC fervently believes a 
diverse formation lends itself to this end, and we develop all 
Air Commandos accordingly. The readiness and relevance of our 
force is for naught if we neglect our physical, mental, 
spiritual, and social fitness. Using SOCOM's Preservation of 
the Force and Family and the Air Force's Comprehensive Airman 
Fitness Program--Programs, we ensure that our Air Commando 
community, including our brave Gold Star families, have access 
to every possible tool to achieve sustained resiliency, and we 
exploit every opportunity to encourage our airmen to use these 
tools.
    Chairwoman Ernst, Ranking Member Heinrich, members of the 
committee, AFSOC represents our Nation's finest assets and our 
enduring strategic advantage. On behalf of all Commandos--Air 
Commandos, I thank you for the opportunity to address you 
today, and I look forward to your questions.
    [The prepared statement of Lieutenant General Webb 
follows:]

       Prepared Statement by Lieutenant General Marshall B. Webb
    Chairwoman Ernst, Ranking Member Heinrich and distinguished members 
of the Committee, I am honored to appear before you as the Commander of 
Air Force Special Operations Command (AFSOC) on behalf of your superb 
Air Commandos. Today, I will share with you how AFSOC is ready to win 
tomorrow's fight for our Nation if called upon, regardless of the 
adversary.
    As United States Special Operations Command's (USSOCOM) air 
component, we continuously strive to hone capability and evolve our 
force to remain Ready, Relevant, and Resilient--our three AFSOC 
priorities. I want to express my gratitude for the resources projected 
in Presidential Budget (PB) 2019, as these fully fund our requirements 
and will help us turn a strategic corner as we engage in the Great 
Powers competition.
    In line with the National Defense Strategy (NDS), AFSOC has the 
duty and opportunity to shape specialized airpower to accentuate both 
the far low-end and high-end of the conflict spectrum. As General 
Thomas testified before your committee 2 months ago, Special 
Operations' unique capabilities are in high demand across the globe. 
For 17 years, AFSOC has been focused on Counter-Violent Extremist 
Organizations (CVEO) operations. This has accelerated the AFSOC 
operations tempo and has drawn our efforts towards the low-end of the 
conflict spectrum. We realize these efforts are predominately long-term 
engagements in which cumulative tactical effects lead to long-term 
strategic impact. To make such engagements successful, AFSOC must lower 
the resource and opportunity costs of conducting persistent CVEO 
operations. We must drive down the cost of conducting Intelligence, 
Surveillance and Reconnaissance (ISR), Processing, Exploitation and 
Dissemination (PED), and Strike--especially in permissive environments. 
Conversely, AFSOC operations on the high-end are predominately those 
that deliver strategic impact in a short amount of time. AFSOC must be 
capable and flexible in order to confront competitors across a range of 
potential conflict scenarios. We must develop a force that is more 
lethal and resilient in contested environments. We must be able to gain 
and maintain advantage in the information domain. Harmonizing our 
systems wherever possible will achieve efficiencies of scale and 
interoperability savings along these lines of effort.
    This analysis brings me to AFSOC's first priority: READINESS. For 
nearly three decades, AFSOC has effectively and decisively delivered 
specialized airpower around the globe, often at a moment's notice. Our 
battlefield performance remains unmatched. However, the character of 
war continually evolves. AFSOC must remain agile and ready to prepare 
for the unpredictable. AFSOC must build full-spectrum readiness while 
ensuring that we are postured to ``fight tonight''. We are invested in 
virtual, adaptive, and realistic training to build readiness beyond 
traditional means. Using virtual reality to integrate live training 
environments with simulators reduces training costs, lowers personnel 
tempo, and enables us to realistically exercise highend mission sets.
    Another way to maximize readiness is by strengthening our network 
of allies and attracting new partners. AFSOC stands with our Indo-
Pacific, Middle Eastern, African, European, and hemispheric allies and 
partners, providing assurance and enhanced aviation capabilities 
against a subversive Russia and an increasingly expansionist China. 
Ensuring readiness both home and abroad, AFSOC conducted 78 exercises 
and training events with partner nations in 2017, including stateside 
capstone exercises like our recently concluded EMERALD WARRIOR. 
Overseas-based exercises, led by our OCONUS units and occasionally 
augmented with CONUS forces, play a critical role enabling Theater 
Special Operations Command (TSOC) and Global Combatant Command (GCC) 
regional campaign plans. Conducting bilateral and multilateral events 
with the Republic of Korea, Japan, the Republic of India, the Republic 
of Estonia, the United Kingdom, France, and others, our Air Commandos 
bolster the capabilities of partner nations, create pockets of 
containment, and ensure interoperability between American, allied, and 
partner forces. We welcome hosting members of this committee at any 
future exercises to see firsthand the value our Air Commandos deliver 
to allies, partners, and the Nation.
    Our Combat Aviation Advisors (CAA) are the vanguard of AFSOC's 
Irregular Warfare force. Specializing in Aviation Foreign Internal 
Defense (AvFID) operations, CAAs recently enhanced indigenous aviation 
operations in the Kingdom of Thailand, the Hashemite Kingdom of Jordan, 
and the Republic of Poland. PB-19 dramatically improves our AvFID 
capability by doubling our CAA capacity with 152 additional advisors, 
and by adding five AvFID Armed ISR aircraft. CAA force growth ensures 
engagement with Combatant Commanders' highest priority countries. As we 
work to build out the full CAA capability portfolio and bring more 
partner nations on board to share the security, we enthusiastically 
support the Air Force's Light Attack Aircraft initiative. Using an 
economically feasible Light Attack platform would allow us to scale 
aviation training for our allies, expand procurement and maintenance 
efficiencies, and maximize opportunities to build partner capacity.
    Should a bolstered allied network fail to deter aggression, AFSOC 
remains postured to deter, compete, and win against strategic 
competitors via our second priority: RELEVANCE. To meet the challenges 
enumerated in the NDS, AFSOC must cultivate a balanced force for high- 
and low-end conflict by investing in new capabilities while leveraging 
current capabilities in new, innovative ways. This strategy aims to 
balance and expand AFSOC relevance across the spectrum of conflict to 
deter, and if necessary defeat, adversaries in a dynamic and 
everchanging security environment. AFSOC embraces the process of 
innovation from within our formation, striving towards a balance of 
incremental and transformational efforts that are costeffective and 
that extend strategic purpose.
    AFSOC assiduously investigates new and unique ways to organize, 
train, and equip against strategic competitors. We promote General 
Goldfein's ``current technology used in new ways'' approach to rapid, 
cost-effective, and impactful innovation. AFSOC finds the way against 
America's toughest enemies, dating back to daring infiltration missions 
against Nazi Germany's Fortress Europe and the front lines of Imperial 
Japan. This ethos endured through the decades, and is still alive and 
well in your Air Commandos of today. Regardless of threats, AFSOC finds 
quick and lethal solutions, understanding the shifting geopolitical 
landscape and constantly adjusting our force presentation to maximize 
lethality and applicability for tomorrow's fight.
    Maintaining a relevant force and fleet demands that we continually 
refine and modernize the force through programming priorities. By 
accelerating programs essential to retiring legacy aircraft, AFSOC can 
reinvest cost savings into future capabilities. For example, the MC-
130J Talon III program provides adverse weather terrain following/
terrain avoidance, radar threat avoidance/protection, and communication 
networking capabilities significantly more advanced than our current 
MC-130H Talon II fleet built in the 1980s. New Radar Frequency 
Countermeasures technologies bring expanded capabilities, allowing 
digital upgrades that protect against emerging enemy threats without 
replacing complete systems. Airborne Mission Networking provides a 
suite of integrated situational awareness and communication tools 
providing the crew with a correlated common operating picture of the 
air and ground battlespace that does not currently exist in SOF 
mobility aircraft. PB-19 funding is critical to synchronize the Talon 
III design and testing, thus enabling a timely recapitalization of the 
Talon II fleet. Fielding of Talon III capabilities is critical to 
maintaining the relevance of our SOF C-130 specialized mobility fleet 
across all spectrums.
    Knowing we must innovate at the speed of relevancy, we are 
currently fielding our newest gunship using ``plug and play'' 
technology already evaluated in other AFSOC platforms. This allows for 
an expedited fielding timeline, and more rapidly delivers the best 
lethality to our warfighters. Additionally, AFSOC is adjusting tactics, 
techniques, and procedures, and adding low-cost modifications to 
current
assets. These new combinations aim to produce cascading problems for 
America's adversaries, creating strategic dilemmas and buying time for 
the Joint Force to act and react accordingly. The faster we can go from 
concept to the battlefield, the better.
    Other key emergent technologies at AFSOC include the gunship High 
Energy Laser, a non-kinetic weapon system employed to achieve high 
precision lethal effects on targets with little to no acoustic 
signature and very low collateral damage. High Energy Lasers are a 
truly remarkable and innovative technology, one that is capable of 
dramatically shaping the battlefield to our advantage. Additional 
gunship advancements include the use of Adverse Weather Engagement 
Systems and Tactical Off-Board Sensing technologies. These systems 
enable our AC-130 gunship fleet to target, sense, and engage despite 
adverse weather conditions.
    Looking beyond the next ridgeline, we are interested in 
developments relating to Next Generation Vertical Take Off and Landing 
capabilities. We see this presenting a revolutionary leap in vertical 
lift range and speed using advanced turbofan technology. Additionally, 
our Next Generation Manned ISR platform is going through requirement 
validation. We know this capability must be operable in a more 
contested threat environment than we've become accustomed to, and thus 
we're looking for increases in endurance, range, speed, capacity, 
payload, and advanced defensive systems. Staying relevant requires 
persistence.
    AFSOC is working with USSOCOM and Air Force Space Command to 
increase interoperability. As the Department of Defense's lead 
component for the space warfighting domain, the Air Force aims to 
advance space-based technology to maintain superiority in the ultimate 
high ground. The Joint Force's reliance on these space effects, such as 
GPS, ISR, and communications capabilities will grow exponentially, 
despite increased threats in the domain. We have adopted a resilient 
space enhancement strategy to ensure these capabilities are available 
for AFSOC missions throughout the conflict spectrum. Future employment 
opportunities include Alternative Beyond-Line-of-Sight options during 
operations and resilient positioning, navigation, and timing (PNT) 
systems in denied environments.
    AFSOC heavily leverages both Air Force and USSOCOM research and 
development investments, but also tracks key Air Force Research 
Laboratory (AFRL), Defense Advanced Research Projects Agency (DARPA), 
Office of the Secretary of Defense Strategic Capabilities Office (SCO), 
and industry projects that align with our innovation focus. For 
example, we are partners with USSOCOM, AFRL, and industry for Project 
MAVEN. This Under Secretary of Defense for Intelligence initiative 
leverages machine learning and artificial intelligence capabilities to 
free precious human capital from labor-intensive ISR categorization 
work. AFSOC leverages USSOCOM's SOFWERX network to reach largely 
untapped non-traditional sources of innovation in the commercial 
markets. SOFWERX recently facilitated assessments for AFSOC of new 
systems and technologies, like reducing the size, weight and power of 
the equipment carried by our Special Tactics operators. AFWERX is a 
similarly-scoped Air Force program that is relatively new, and is 
beginning to work other issues related to Special Tactics.
    Finally, our third priority is Resiliency. What defines AFSOC is 
not technology or platforms. Rather, we are defined by our people--
Active Duty, Guard, Reserve, and civilians alike--and their relentless 
application of our ethos and strategic values balanced across the 
spectrum of conflict. Tomorrow's fight is unknowable but one thing is 
certain: it must be an integrated joint venture where our creative 
concepts will win out. AFSOC fervently believes a diverse formation 
lends itself to this end and we develop all Air Commandos accordingly. 
In fact, AFSOC employs the skills of female aviators in combat 
operations, and has done so since 1994. The Air Force proudly promoted 
our first female Air Commando to the rank of Brigadier General this 
year, and over 13 percent of our senior enlisted formation is female, a 
ratio that compares favorably to the rest of the Air Force. We have 
benefited from the expertise of female leadership at the squadron, 
group, and wing level for years, and will continue to do so into the 
future.
    Humans, not hardware, allow us to accomplish our mission. Our Air 
Commandos, families, and relationships are our most valuable assets; 
but they are also our most vulnerable. Our Nation calls upon us to 
provide specialized airpower, oftentimes at a moment's notice. We 
proudly stand ready to answer our Nation's call. We understand the 
impact of this demanding and perilous mission. Therefore, the immediate 
and enduring resiliency of our force, family, and relationships, is the 
critical foundation for everything we do. We consider this an essential 
task to maintain readiness of the AFSOC force.
    The readiness and relevance of our force is for naught if we 
neglect our physical, mental, spiritual, and social fitness. Utilizing 
USSOCOM's Preservation of the Force and Family (POTFF) and the Air 
Force's Comprehensive Airman Fitness programs, we ensure that our Air 
Commandos, including our brave gold star families, have access to every 
possible tool to achieve resiliency every day and we exploit every 
opportunity to encourage our Airmen to use these tools.
    POTFF enables us to deliver Human Performance Programs designed to 
meet the unique needs of our warfighters. It delivers Psychological 
Performance Programs to improve our cognitive and behavioral 
performance. It integrates family resilience initiatives into Social 
Performance Programs, enhancing service-provided programs. POTFF allows 
us to deliver Spiritual Performance Programs to enhance core beliefs, 
values, awareness, relationships and experiences. Our team is grateful 
for your resolute support of AFSOC, as the continued funding of 
USSOCOM's POTFF program is vital to the long-term psychological, 
spiritual, social, and physical resiliency of the Nation's bravest 
warriors. After all, the invisible wounds of war can be just as 
debilitating as physical injuries.
    AFSOC is on a glide path to meet the Secretary of Defense's goal of 
1:2 deployment-todwell for the active force and 1:5 for reserve forces. 
Currently, 17 percent of deployed AFSOC personnel have a deployment-to-
dwell of less than 1:2 and there are no individuals deployed below 1:1. 
To balance the insatiable global demand for specialized airpower, we 
are consistently working towards a maintainable deployment tempo for 
the long-term health of our force, while enhancing focus on recruiting, 
retention, and preservation of the force initiatives.
    Chairwoman Ernst, Ranking Member Heinrich, and Members of the 
Committee, AFSOC represents our Nation's finest assets and our enduring 
strategic advantage. On behalf of all Air Commandos thank you for the 
opportunity to address you today. I look forward to answering any 
questions you might have.

    Senator Ernst. Thank you, General Webb.
    General Tovo.

     STATEMENT OF LIEUTENANT GENERAL KENNETH E. TOVO, USA, 
    COMMANDING GENERAL, U.S. ARMY SPECIAL OPERATIONS COMMAND

    Lieutenant General Tovo. Madam Chairwoman Ernst, Ranking 
Member Heinrich, distinguished Senators of the committee, thank 
you for the opportunity to highlight the phenomenal men and 
women of the Army Special Operations community and the great 
work they do on behalf of the Nation every day around the 
world.
    USASOC [United States Army Special Operations Command] 
provides more than 51 percent of the Nation's SOF and 
consistently fills over 60 percent of SOF deployments 
worldwide. The command consists of Special Forces, also known 
as the Green Berets, our premier practitioners of irregular 
warfare; psychological operations, who use the power of 
influence to shape operational environments; civil affairs, who 
conduct civil reconnaissance, mapping of human terrain in 
governance and counter-governance activities; Rangers, who 
specialize in direct-action raids and joint forcible entry; and 
Army Special Operations aviators, who provide a unique rotary 
wing and ISR [Intelligence, Surveillance, Reconnaissance] 
capability.
    ARSOF soldiers are deployed in more than 70 countries on 
any given day of the year, delivering strategic value to the 
Nation through four complementary capabilities: an indigenous 
approach, precision targeting operations, developing 
understanding and wielding influence, and, lastly, crisis 
response.
    You have asked me to discuss what USASOC is doing to 
prepare ARSOF for both the current and emergent range of 
threats our Nation faces. At the macro level, our Nation's 
threats can be binned in two categories: first, violent 
extremist organizations that threaten the homeland and other 
strategic interests; and, second, those peer and near-peer 
adversaries who seek to undermine our global influence and 
overturn the current international order that preserves our 
prosperity.
    The counter-VEO [violent extremist organizations] fight has 
monopolized our global efforts for over 16 years. However, it 
is clear that competing nations, such as Russia, China, North 
Korea, and Iran, will continue to challenge the current 
international security order to seek greater regional and, in 
some cases, global influence.
    USASOC is sustaining the counter-VEO fight while building 
readiness for peer and near-peer threats by investing in three 
major efforts. First, we are in the midst of a multiyear effort 
to restore balance to the force, with the aim of improving the 
health of the force and providing additional time to train 
against the broader set of tasks that must be mastered to 
address peer adversaries. Second, we have made significant 
investments in the intellectual space to ensure that we 
understand the implications of changes in the security 
environment and that we find ways to maintain an enduring 
competitive advantage over our Nation's adversaries. Third, the 
command published strategic guidance, USASOC Strategy 2035, to 
establish the objectives and framework for developing the 
capabilities required to move ARSOF from the force of today to 
the force that the Nation will need in the future.
    Competing successfully against our adversaries is 
demanding. It requires persistent engagement at points of 
vulnerability around the world. It requires soldiers who 
understand the political, cultural, and geographic complexities 
of austere operating environments and the unique challenges 
faced by our allies and our partners. It also requires an 
advanced understanding of our adversaries and how they are 
evolving in an effort to shift the competitive space to their 
advantage. To meet these requirements and to counter hybrid 
threats of the future, USASOC will continue to provide the 
Nation with a balanced portfolio of complementary capabilities.
    Before I conclude, I'd like to thank this Congress for its 
continued support of SOF, the Army, and DOD. Your efforts to 
provide budgetary relief are greatly appreciated. Your 
continued endorsement of critical SOCOM programs, such as 
Preservation of the Force and Family, are essential to the 
resilience and readiness of ARSOF. I'd like to specifically 
thank the Senate Armed Services Committee for its advocacy for 
SOF in the 2018 NDAA [National Defense Authorization Act]. The 
authorities provided under Section 1202 gives SOF the tools 
required to impede the progress of adversary advances in the 
competitive space, short of war.
    Thank you for this opportunity to appear before you today, 
and I look forward to your questions.
    [The prepared statement of General Tovo follows:]

         Prepared Statement by Lieutenant General Kenneth Tovo
                            opening remarks
    Madam Chairwoman Ernst and distinguished members of the Committee, 
thank you for the opportunity to highlight the phenomenal men and women 
of the Army Special Operations community and the great work they do on 
behalf of the Nation, every day, around the world. USASOC provides more 
than 51 percent of the Nation's Special Operations Forces and 
consistently fills over 60 percent of all U.S. SOF deployments 
worldwide. USASOC is made up of Special Forces, also known as Green 
Berets, who are our premier practitioners of irregular warfare; 
Psychological Operations, who use the power of influence to shape 
operational environments; Civil Affairs, who conduct civil 
reconnaissance, mapping of human terrain, and conduct governance and 
counter governance activities; Rangers, who specialize in direct action 
raids and joint forcible entry; and Army Special Operations Forces 
(ARSOF) Aviators, who provide a SOF unique rotary wing and ISR 
capability. USASOC has the mission to man, train, equip, educate, 
organize, sustain, and support all ARSOF.
    I would also like to thank this Congress for its continued support 
of Special Operations Forces, the Army, and DOD as a whole. Congress's 
efforts to provide budgetary relief to DOD is greatly appreciated down 
to the individual soldier level. Your continued endorsement of critical 
USSOCOM programs such as the Preservation of the Force and Family 
(POTFF) are essential to the resilience and readiness of ARSOF. 
Additionally, I would like to specifically thank the Senate Armed 
Services Committee for its advocacy for SOF in the 2018 NDAA. The new 
authorities provided under Section 1202 of the 2018 NDAA gives SOF the 
irregular warfare tools and resources required to impede the progress 
of near peer advances in the competitive space short of war.
    You have asked me today to discuss what USASOC is doing to prepare 
ARSOF for both the current and the emergent range of threats that our 
Nation faces. At a macro level, our Nation's threats can be categorized 
as countering violent extremist organizations (counter-VEO) and 
building readiness for near peer adversaries. The counter-VEO fight has 
monopolized our global efforts for 16 plus years; however, it is clear 
that competing nations such as Iran, Russia, China, and North Korea 
will continue to challenge the current international security dynamic 
to seek greater regional influence.
    Although the possibility of a near peer or peer conflict remains a 
persistent aspect of the future environment, competing nations are 
challenging the stability of regions and U.S. interests through 
indirect means in the competitive space between peace and conflict. 
Adversarial actions in the competitive space will seek to achieve 
irreversible gains at the expense of U.S. interests, as competing 
nations leverage asymmetric technologies, disenfranchised minority 
elements of populations, and exploit weak governance. This changing 
character of war is being enabled by the hyper-connected nature of the 
global environment, allowing hostile entities to influence vulnerable 
populations and hijack local grievances in ways that threaten regional 
security. Threats to stability in the competitive spaces will likely 
emerge more rapidly, requiring the U.S. to have immediately employable 
options to counter the actions of competing nations. Ultimately, these 
challenges have driven, and will continue to drive, the need for 
ARSOF's unique capabilities and skills. USASOC is sustaining the 
current counter-VEO fight, while building readiness for peer and near 
peer threats, by investing in three major efforts: restoring balance to 
the force, investment in the intellectual space, and publishing 
strategic guidance (USASOC 2035).
Effort I: Restoring Balance to the Force
    Since 2015, USASOC has been on a path to reestablish a balance 
between time on deployment with time at home station for our soldiers. 
There were two purposes of restoring balance to the force. The first 
purpose was improving the overall health of the force and the second 
was to provide additional time for units to train on a broader range 
capabilities, to address the peer and near peer threats that our Nation 
faces. On a daily basis ARSOF are operating in over 70 countries around 
the world, executing missions in support of Geographic Combatant 
Commanders or other elements of the U.S. Government. USASOC forces have 
always been in high demand; however, during the last 16 plus years of 
combat, meeting operational requirements surpassed our ability to 
maintain a sustainable resource model. USASOC's crucial weapon system 
is the specially selected and uniquely trained ARSOF soldier. We must 
carefully balance the demand for ARSOF to meet today's requirements 
with the necessity to preserve the health and welfare of our soldiers, 
and by extension, their families. With USSOCOM's assistance, USASOC has 
implemented a sustainable resource model. USASOC is on glide path to 
achieve the SECDEF's directed 1:2 deployment to dwell ratio by the end 
of 2018. Additionally, we are using tools such as Defense Ready to 
accurately track and manage the personnel tempo of our individual 
soldiers, which gives us a more accurate assessment of the demand that 
we have placed on our soldiers and their families.
    Since implementing our efforts to restore balance to the force, we 
have seen positive returns on investment in the health of the force. 
Although there has been recent scrutiny regarding the health of ARSOF, 
in my view our force is healthy and getting healthier every day. Two 
positive trends that USASOC has observed are a decrease in suicide 
rates and sexual assaults.
    USASOC has observed a decrease in the number of suicides each year 
for the last 3 years, with a total of 5 in 2017. Although one suicide 
is too many, this is an improvement compared to 16 in 2013. I accredit 
this decrease in suicide to the benefits of the POTFF Program and a 
cultural change within our units encouraging our soldiers to seek help 
when they, or their families, are having emotional issues, and 
emphasizing the duty for teammates to act on if they suspect issues. 
Additionally, USASOC's sexual assault incident rate across ARSOF 
formations (recent assaults) is declining, while latent reporting has 
increased. The increase in latent reporting reflects an increased trust 
in the Command and the Army's Sexual Harassment/Assault Response and 
Prevention (SHARP) program and a reduced perception of a negative 
stigma associated with reporting sexual assaults.
    A significant challenge to rebalancing the force is USASOC's 
identified manning deficits. However, in accordance with the POM 19-23 
Program Decision Memorandum, USASOC will gain an additional 1,585 
manpower positions that will begin to address those manning deficits. 
In the 19-23 POM USASOC will gain manpower positions for expanded 
functions in expeditionary Command and Control, military intelligence, 
cyber, institutional training, and aviation. A primary example of the 
importance of this growth will be realized within our 1st Special 
Forces Command (1st SFC). First SFC was reorganized as a deployable 
division level headquarters capable of providing mission command to a 
Joint Special Operations Task Force for contingency operations. First 
SFC executed their design purpose by deploying to provide SOF mission 
command in Iraq and Syria 2016-2017. However, 1st SFC's identified 
manning shortages created significant strain on the command. First 
SFC's programmed growth in the POM 19-23 Program Decision Memorandum 
will provide an additional 272 (222 Military/ 50 Civilians).
    A second example of the positive impact of USASOC's approved growth 
is in our Military Intelligence Soldiers. The programmed growth in 
military intelligence will expand USASOC's organic processing, 
exploitation, and dissemination (PED) capability (+396: 250 Military/
146 Contractors), which has been an enduring challenge for our 
formations. Our ability to internally conduct PED will provide a more 
capable and efficient force to Combatant Commanders and increases our 
readiness for peer and near peer threats in both armed conflict and the 
competitive space short of war.
    The second purpose of restoring balance to the force was to allow 
units time to train on a broadened range of capabilities to address the 
peer and near peer threats that our Nation faces. USASOC has been able 
to refocus its training readiness efforts by reviewing and updating 
Mission Essential Task Lists (METL) across ARSOF, and training those 
updated METLs during unit level training events, at multiple exercises, 
and at the Army's Combat Training Centers (CTC). USASOC's review of its 
operational and tactical METL has ensured that ARSOF soldiers remain 
ready for counter-VEO missions globally and also sustain readiness for 
peer and near peer threats in competition and conflict.
    ARSOF is now a consistent participant in CTC rotations with 
conventional forces. CTC scenarios challenge ARSOF and conventional 
forces to work together in complex threat environments that include 
degraded communications, weapons of mass destruction threats, 
subterranean complexes, cyber threats, and electronic warfare (EW) 
challenges that we would expect in a peer or near peer conflict. In the 
past year, 1st Special Forces Command has executed 11 CTC rotations, 
USASOC's multi-state irregular warfare exercise Jade Helm 2017, and 
will execute their first, ARSOF 2-star Division-level Army War-fighting 
Exercise 18-04 in this month; the 75th Ranger Regiment executed four 
CTC rotations, five battalion level mission readiness exercises, and 14 
realistic military training (RMT) exercises; and the United States Army 
Special Operations Aviation Command's 160th Special Operations Aviation 
Regiment executed five CTC rotations and seven RMTs.
    ARSOF aviators are now conducting annual training in anti-access/
area denial (A2AD) environments where adversaries possess robust EW 
capabilities that can identify and target our aircraft. New tactics, 
techniques, and procedures for operating in an A2AD environment are 
being developed and proliferated across the Department of Defense (DOD) 
by ARSOF Aviators in preparation for the challenges of this threat 
environment. ARSOF Aviators are also completely nested with the Army's 
Future Vertical Lift initiatives to develop the next generation of 
helicopters and are incorporating the lessons learned training in an 
A2AD environment to inform that process.
    Our potential adversaries are well aware of the power of our 
ability to exercise mission command through robust satellite 
communications; and consequently will seek to deny or disrupt this 
network. USASOC Units are exercising lessons learned from our virtual 
wargaming and are training in communications denied environments, 
preparing for the anticipated mission command challenges of this 
environment. Additionally, we are re-investing in clandestine 
communications platforms to decrease our digital footprint.
    The proliferation of chemical, biological, radiological, nuclear, 
high-yield explosive weapons, and the means by which they are delivered 
will pose an increased threat to U.S. interests and international 
security in the future. The decreasing costs associated with WMD 
technology make these weapons a lucrative option for both VEOs and 
peer/near peer adversaries. USASOC is investing heavily in our 
chemical, biological, radiological, nuclear, and enhanced conventional 
weapons (CBRNE) counter measures, ranging from soldier protection 
systems to aircraft decontamination systems and training.
    USASOC is also addressing the cyber threats that are now present on 
today's multi-domain battlefield, by establishing a tactical cyber 
course in 2017. The Special Operations Center of Excellence (SOCoE) now 
provides tactical cyber training to both ARSOF and conventional forces 
(CF), with the ability to train 600 personnel per year. ARSOF and CF 
soldiers are training together and procuring the requisite skills to 
monitor, in a non-attributional manner, their tactical level 
environment and decrease their cyber footprint, enabling increased 
force protection and situational awareness when deployed.
Effort II: Investment in the Intellectual Space
    Four years ago USASOC identified the need to address gaps in the 
development of new concepts and capabilities in order to maintain a 
competitive edge over our Nation's adversaries. In 2014, USASOC created 
the G9 ``Futures'' Directorate through an internal reorganization to 
fill this void in the intellectual space. USASOC's human capital 
investment in the G9 was an acknowledgement of the criticality of 
understanding what the implications are of the current and future 
operating environment, and what would be an appropriate ARSOF solution, 
particularly against peer and near peer competitors.
    Silent Quest (SQ) is USASOC's virtual wargame experiment led by the 
USASOC G9. SQ assesses the concepts, capabilities, and capacities 
required to meet strategic and operational challenges ARSOF can expect 
to encounter in the current and future operational environment. SQ 
identifies existing ARSOF doctrine and capabilities that require 
updating through USASOC's Strategic Planning Process. The SQ wargame 
scenario utilizes a Special Operations-Centric Campaign supporting a 
Theater Special Operations Command, characterized by its multi-year, 
small-footprint, scalable design, nesting ARSOF operations with 
Conventional Force, Joint, Multinational, and Interagency unified 
actions set against peer and near peer competitors.
    The G9 also leads USASOC's efforts in Army and Joint senior leader 
forums. Beginning with the Modern Russian Unconventional Warfare forum 
in March of 2015, these USASOC sponsored forums have explored ARSOF's 
response to the changing character of warfare and are designed to 
broaden strategic options for our National leaders. Our most recent 
Senior Leader Forum addressed Multi-Domain Maneuver. Multi-Domain 
Maneuver is the Army's concept of Joint Force employment of the 
physical, cognitive, and virtual aspects of maneuver at all levels, in 
and through all domains, across the operational framework, through 
time, and across the range of modern warfare challenges to maintain a 
competitive edge over our Nation's adversaries. The forum set 
conditions for further institutional exploration of Operational / 
Strategic maneuver and campaigns to prevent, deter, and / or defeat 
adversary strategies below the level of armed conflict.
    The USASOC G9 is currently developing the ARSOF Operating Concept 
for 2035 and Beyond. The ARSOF OC addresses the challenge:

        In a constrained future environment of peer, near-peer, and 
        non-state competitors, with technologically advanced threats, 
        ubiquitous surveillance, AI-enabled battle networks, an 
        accelerating pace of change, globally scaled and interconnected 
        information, and the increasing relevance of people and 
        populations in competition and conflict, how does ARSOF gain 
        and maintain an enduring competitive advantage over our 
        Nation's adversaries?

    It is our goal, through our investment in the intellectual space, 
for ARSOF to employ empowered soldiers and integrated units capable of 
delivering ARSOF Combined Arms across the range of modern warfare 
challenges, as it leverages adaptive and innovative institutional 
capabilities to provide the joint force an enduring competitive edge 
over our Nation's adversaries. That edge comes from a synergy arising 
from campaigns and operations that combine the abilities of 
conventional forces and special operations forces to maneuver against 
our Nation's challengers.
Effort III: Publishing Strategic Guidance (USASOC 2035)
    In 2017 USASOC published its strategic guidance to ARSOF, USASOC 
2035. USASOC 2035 provides guidance for the further development of 
ARSOF institutional and operational capabilities needed to counter 
threats across the spectrum of conflict, especially in the competitive 
spaces between peace and overt war. USASOC 2035 incorporates the 
previous USASOC Commander's initiatives that are still in progress and 
builds upon those capabilities already established. USASOC 2035 
presents objectives for developing future capabilities that will move 
ARSOF from the force of today to the force of tomorrow.
    In USASOC 2035 we define ARSOF's strategic value to the Nation 
through four complementary capabilities--the Pillars of ARSOF 
Capability: an Indigenous Approach, Precision Targeting Operations, 
Developing Understanding and Wielding Influence, and Crisis Response. 
ARSOF are employed throughout the operational spectrum and across all 
campaign phases, including interagency- or Coalition led campaigns and 
operations. Together, the Pillars of ARSOF Capability provide options 
to shape or prevent outcomes in support of our national interests. 
These capabilities, coupled with tailorable mission command nodes and 
scalable force packages that are low-signature and employ a small 
footprint, are particularly suited for employment in politically 
sensitive and irregular warfare environments.
    The indigenous approach is a means to address challenges to 
regional stability with and through populations and partner forces 
empowered by persistent ARSOF engagement. Through this approach, ARSOF 
leverage nascent capability within populations, transforming indigenous 
mass into combat power. Since World War II, ARSOF elements have amassed 
unique institutional and operational expertise in living among, 
training, advising, and fighting alongside people of foreign cultures, 
achieving effects with and through partner forces. Today, ARSOF 
training pipelines produce regionally oriented, culturally astute, and 
language-capable personnel who can apply an indigenous approach across 
the spectrum of conflict in permissive, uncertain, and hostile 
environments. The indigenous approach provides low-cost, high-impact 
options to address state and non-state threats, set conditions for 
conventional force success, and execute sensitive activities through 
minimal force commitment.
    Precision targeting operations involve both kinetic and non-kinetic 
direct action and counter-network activities enabled by SOF unique 
intelligence, targeting processes, and technology, to include ARSOF 
rotary wing capabilities, armed unmanned aerial systems, and 
psychological operations. Precision targeting operations create precise 
physical and psychological effects and can be used to collapse human or 
physical networks through deliberate targeting of critical nodes. 
Precision targeting operations are employed against uniquely difficult 
target sets that may require operating in uncertain or hostile 
environments, careful and focused application of force, and significant 
intelligence and operational preparation. These operations are executed 
by highly trained, rapidly deployable, and scalable ARSOF personnel and 
formations that are employed to buy time and space for other operations 
to gain traction, such as transforming indigenous mass into combat 
power.
    Developing understanding and wielding influence are essential 
aspects of the value ARSOF capabilities provide joint force commanders 
and the Nation. The SOF network of personnel, assets, and international 
partnerships represents the means to obtain early understanding of 
emerging local, regional, transregional threats, and/or where 
opportunities exist for advancing U.S. objectives. The SOF network 
provides capabilities needed to influence outcomes in all campaign 
phases and especially in conflict short of overt war. Engagement 
worldwide allows ARSOF to develop long-term partner nation 
relationships, and an advanced understanding of complex environments. 
Operating in culturally and politically complex environments requires 
ARSOF personnel to be adept at interacting and coordi-nating with 
multiple agencies and partners. Institutional training and education 
programs unique to ARSOF, along with long-term regionally aligned 
employment, provide the expertise necessary to understand complex 
environments and the ability to influence people and circumstances.
    Crisis response, provided through CONUS and OCONUS stationed alert 
forces and persistently deployed and dispersed units, provides national 
decision makers with agile, tailorable, and rapidly employable ARSOF 
formations necessary to respond to emergencies. These forces provide 
options to rescue people under threat, to recover sensitive materials, 
to provide humanitarian relief, or to address other short notice 
contingencies. ARSOF crisis response capabilities leverage the SOF 
network and partner-nation relationships established before crisis 
occurs. Persistent engagement develops relationships and the advanced 
understanding needed in times of crisis for ARSOF to effectively employ 
unilateral capabilities and those created during partner-force 
development. Through ARSOF crisis response, a small number of operators 
can rapidly address emergencies in an effort to enable host nation 
solutions to local or regional security challenges.
                               conclusion
    In summary, after more than 16 years of war, the operational 
effectiveness of ARSOF remains high. We have acknowledged that the 
future operating environment will continue to evolve with highly 
adaptive state and non-state adversaries seeking to challenge the 
status quo and our National interests. USASOC has refocused our 
training priorities to remain ready for the global counter-VEO mission, 
while also building and sustaining readiness for peer and near peer 
threats, in both armed conflict and the competitive space short of war. 
Preventing or deterring hybrid conflict short of all-out war is 
demanding. It requires persistent forward engagement at points of 
vulnerability around the world. It requires soldiers to understand the 
political, cultural, and geographic complexities of austere operating 
environments and the unique challenges faced by our allies and 
partners. It also requires an advanced understanding of adversaries and 
how they are evolving in an effort to shift the competitive space to 
their advantage. In order to meet these requirements and to counter 
irregular and conventional warfare threats of the future, USASOC will 
continue to provide the Nation with a portfolio of comple-mentary 
capabilities enabled by institutional and operational agility. We 
remain committed to embodying the USASOC motto: ``Sine Pari''--Without 
Equal.

    Senator Ernst. Thank you, General.
    Admiral Szymanski.

STATEMENT OF REAR ADMIRAL TIMOTHY G. SZYMANSKI, USN, COMMANDER, 
                 NAVAL SPECIAL WARFARE COMMAND

    Rear Admiral Szymanski. Chairwoman Ernst, Ranking Member 
Heinrich, and distinguished members of the committee, I'm 
honored to be here today with my Special Operations 
counterparts to provide an update on your naval Special 
Operations Force and the maritime component of U.S. Special 
Operations Command.
    I have with me today my force master chief, Special Warfare 
Operator Derrick Walters. We are proud to represent the men and 
women of Naval Special Warfare, who are fulfilling the missions 
our Nation's ask of them with courage, diligence, and 
professionalism.
    Naval Special Warfare is made up of sea, air, land 
operators, our SEALs [Sea, Air, and Land Teams], our special 
boat operators, commonly referred to as SWCC, or Special 
Warfare Combatant Craft Crewman, our combat support and combat 
service support personnel, such as intelligence analysts, 
cryptologists, communications specialists, chaplain corps and 
medical support, amongst others. We are a mix of Active Duty, 
Reserve, and civilians. Our nearly 10,000 personnel account for 
2.4 percent of the Navy's overall personnel numbers and 14 
percent of the U.S. Special Operations personnel numbers. Our 
budget accounts for less than 1 percent of the Department of 
the Navy's budget and approximately 12 percent of the U.S. 
Special Operations Command budget.
    As you are aware, and as the National Defense Strategy 
describes, and as my colleagues have highlighted, security 
challenges facing the Nation today are numerous, and the 
changing nature of war requires that we change with it. Today, 
we have more than 1,000 special operators and support personnel 
deployed to more than 35 countries, facing those challenges, 
assuring partners, and strengthening alliances. I would like to 
thank this committee for your support to Special Operations.
    As we continue in the longest stretch of armed conflict in 
our Nation's history, congressional support is paramount as we 
work to maintain advantage over our enemies, protect the 
Nation, and care for the health and well-being of our operators 
and their families. The first SOF truth, that humans are more 
important than hardware, remains our guiding principle. We have 
the best weapons and technology, but our primary weapon systems 
are now, and always have been, our operators. We select, train, 
and sustain men and women of character, who are mature, highly 
skilled, culturally attuned, and trusted to execute our 
Nation's most sensitive missions. It's precisely because of 
what we ask our people to do, operation after operation, that 
we never lose focus on their long-term health. Preservation of 
the Force and Families, our Human Performance Program, and our 
latest Cognitive Health Initiatives are about operational 
readiness, battlefield performance, and the well-being of our 
force and families.
    After nearly 17 years of operations in Iraq and 
Afghanistan, we are focused on strengthening our capabilities 
as the maritime component to Special Operations. We are making 
progress modernizing our maritime mobility platforms that can 
operate effectively in contested environments. I sincerely 
appreciate the support from the Chief of Naval Operations, 
Admiral Richardson, and his leaders on the Navy staff, towards 
these priorities.
    In today's world, adversaries are pursuing rapidly 
advancing technologies in an effort to surpass those of the 
United States. We, in turn, are relentlessly pursuing 
innovative solutions to generate effective and lethal 
capabilities to outpace our adversaries.
    With our component partners and throughout Special 
Operations Command, innovation is embedded in every level of 
our force. Impressively, our most junior operators routinely 
demonstrate the talent, creativity, and battlefield know-how to 
move ideas to action. Our force on--our focus on innovation is 
driven by our people, buying down risk to our force while 
increasing our speed, accuracy, and lethality. But, innovation 
is not just about bringing technology to bear. The National 
Defense Strategy demands that we think differently, adapt to 
the changing environment, look for efficiencies and ways to 
increase our lethality. Optimizing our force is vital to 
meeting our current operational requirements and providing 
greater agility and lethality to meet future obligations.
    Naval Special Warfare places priority on strengthening, 
equipping, and protecting our people, outpacing our enemies in 
the employment of new technologies in accelerating trends, and 
adapting our force to remain agile, accurate, and lethal for 
many years to come. As a command, we remain vigilant to the 
resiliency of our operators, support personnel, and their 
families, and remain committed to our Gold Star families, whose 
sacrifice we can never repay and whose memory continues to be a 
source of strength for us.
    Thank you for your time, your care for all our sailors and 
our Naval Special Warfare community. I look forward to your 
questions.
    [The prepared statement of Admiral Szymanski follows:]

      Prepared Statement by Rear Admiral Tim Szymanski, U.S. Navy
    Chairwoman Ernst, Ranking Member Heinrich and distinguished Members 
of the Committee, I am honored to appear before you, and proud to 
provide an update on your Navy's Special Operations Force and the U.S. 
Special Operations Command's maritime component.
    As you are aware, the security challenges facing our nation today 
are numerous, and are made more difficult by adversaries who are 
exploiting emerging technologies and gaining ground. We will continue 
to face Violent Extremist Organizations (VEOs), while the battlefield 
expands and becomes more complex and chaotic. Today, our most pressing 
security concerns involve the aggressive, coercive, and disruptive 
actions of near-peer competitors and rogue regimes. Exerting power by 
fighting below the level of armed conflict favors these players to the 
point that they are gaining advantages that threaten our national 
security. We must continue to be smarter, stronger, quicker, and more 
lethal than our adversaries, in order to protect our nation in a world 
that grows more complex every day.
    As an enterprise of nearly 10,000 personnel--2,810 SEALs; 780 
Special Warfare Combatant-craft Crewmen; 4,100 support personnel; 780 
reservists; 1,240 civilians--your Naval Special Warfare (NSW) Command 
accounts for only 2.4 percent of the Navy's personnel. Our budget 
accounts for less than one percent of the Department of the Navy's 
budget, and approximately 12 percent of U.S. Special Operations Command 
(USSOCOM) budget.
    We continue to have a global presence--operating in more than 35 
countries on any given day. We are networked with the U.S. Navy and 
Joint Forces, the interagency, and allies and foreign partners, 
executing missions in support of USSOCOM, the U.S. Navy, geographic 
Combatant Commanders, and ultimately, national objectives across a full 
range of political and operational environments.
            nsw's alignment to the national defense strategy
    The National Defense Strategy (NDS) published earlier this year 
charged the Department of Defense (DOD) to be more agile, more lethal, 
and more innovative in order to maintain our competitive advantage. The 
Chief of Naval Operations, in turn, laid out the maritime 
responsibilities articulated in the NDS, focusing on increasing Naval 
Power through balancing capability and capacity with readiness and 
sustainment.
    As the Commander, my challenge is to man, train, and equip the 
Force to be better positioned to support the NDS, the National Military 
Strategy and the Navy's Strategy for Maintaining Maritime Superiority, 
while supporting the operational requirements of the theater 
commanders. Furthermore, the long-term sustainment, health, and well-
being of our people remains my highest priority.
                             nsw resourcing
    After nearly 17 years of war in Afghanistan and Iraq, we are 
focused on reasserting our capabilities as the maritime component to 
Special Operations, properly postured to meet the threats of the 
future, enhancing our partnership with the Navy and exploring 
opportunities for increased integration and interoperability, while 
building capabilities and capacity with fleet, submarine, aviation and 
cyber forces.
    Acknowledging that manpower requirements have outpaced authorized 
and actual growth, we have spent the last year taking a hard look at 
our force structure to determine how we can best use the resources we 
have to optimize the impacts we are making on the battlefield. We 
looked at how to eliminate redundancy, redirect resources and merge 
assets to build depth and agility and how to meet transregional threats 
and provide increased combat lethality to the Theater Special Operation 
Commands. Optimizing our Force is paramount to meeting current 
operational requirements and provide greater agility to meet future 
requirements.
    We recently collaborated with the Naval Post graduate school to 
conduct a maritime, multi-thread experiment in Southern California. The 
exercise allowed us to explore a realistic scenario using unmanned 
systems in a multi-domain (sea, air and land) environment. We learned a 
lot and advanced the potential use of artificial intelligence and 
human-machine teaming in current conflicts which will eventually 
increase our lethality while reducing risk.
    We have made necessary investments aimed at increasing our 
lethality, and refining our capabilities that enable access to 
contested areas.
    We have made significant increases in our unmanned aerial vehicle 
lethality by adding targeting capabilities, increasing the capabilities 
of current sensor suites, and using algorithms and artificial 
intelligence to speed up the targeting cycle.
    We have modernized numerous small arms systems, including procuring 
a purpose built, full-time suppressed, medium range weapons system; a 
lighter weight medium machine gun that matches and, in some cases, 
surpasses the effective range of a .50 caliber machine gun; a sniper 
weapons system with optics and wind sensing technology; and shoulder-
launched munitions that allow for very precise engagements through 
hardened structures.
    We have made great strides in modernizing our maritime mobility 
platforms. In fact, our partnerships with maritime industries has never 
been stronger.
    We have introduced high performance surface combatant craft into 
our fleet to serve across the spectrum of maritime operations. They 
include our new Combatant Craft Assault which replaced the NSW 11-meter 
rigid-hull inflatable boat and our Combatant Craft Medium which 
replaced the Mark V Special Operations Craft and the introduction of 
the new Combatant Craft Heavy.
    Special Operations Force (SOF) undersea mobility platforms provide 
uniquely capable, clandestine means to access peer/near-peer locations. 
To that end, we expect to introduce two new undersea submersibles this 
year--the Shallow Water Combat Submersible (SWCS), which will replace 
our legacy SEAL Delivery Vehicle (SDV), and the Dry Combat Submersible 
(DCS), a new platform to our inventory.
    Nearly a year ago, we piloted a deliberate effort to realize the 
Secretary of Defense's guidance of exploiting Industry's investment in 
technology to relentlessly pursue innovative and advanced operational 
capabilities for our warfighters at a greater speed, relevant to the 
pace of technology in order to outpace our adversaries. This venture 
allowed us to understand and take advantage of new DOD contracting and 
procurement authorities as well as maximizing the utilization of DOD 
and USSOCOM outreach-to-industry platforms such as Defense Innovation 
Unit Experimental (DIUx) and SOFWERX.
    NSW has learned and applied how to effectively make use of these 
and other new and emerging opportunities to rapidly bring future 
operational concepts to the present: such as our realization of 
Artificial Intelligence-Autonomy of ISR Drones. This example among 
others, show promise to have exponential impacts on our capabilities to 
accomplish our mission in a more agile, lethal and sustainable manner. 
Our efforts--to rapidly prototype, experiment with and lead in new and 
emerging technologies are aimed at delivering capabilities at the speed 
of relevancy to our warfighters.
    Finally, bottom up, operator-inspired innovation drives 
experimentation during exercises, and training eventually equates to 
relevancy and leads to greater success on the battlefield. With our 
component partners and throughout USSOCOM, innovation is happening at 
the unit level up and through headquarters. Our focus on innovation is 
driven by our people--buying down risk to our force while increasing 
our speed, accuracy, and lethality.
                      people: the first sof truth
    Our primary weapons system remains The Operator. We continue to 
invest heavily in our personnel, whether it's to train, retain or 
sustain them. We select, train and maintain persons of character, who 
are mature, highly skilled, culturally attuned and trusted to execute 
our nation's most sensitive missions.
    Thank you for your role in the preservation of our Force with the 
10-year, $1 billion Silver Strand Training Center-South, the single 
most important military construction effort impacting the current and 
future operational readiness of the NSW Force. Once complete, the 
complex will consolidate the training requirements of today's force, 
creating efficiencies and synergy of improved operational planning and 
preparedness, but also allow our operators to spend more time with 
their families and communities.
    We remain committed to the physical and mental health of our 
operators, as we have a moral obligation to ensure their well-being. 
Preservation of the Force and Families, our Human Performance Program, 
and our most important initiatives involving Cognitive Health are about 
keeping our warriors in the fight, extending their service life, and 
giving them a high quality life post-service.
    With strong Congressional support, the USSOCOM Preservation of the 
Force and Family program continues to meet and exceed the intent to 
build resilience and facilitate the long-term care of our operators and 
their families, while never forgetting our fallen teammates with 
ongoing support to our Gold Star Families.
    Embedded professional care providers working within validated 
programs have helped turn the corner on many of the negative trends 
that have impacted those who have been in this long fight. Our usage 
data shows an increase in service members and families going to see 
clinical psychologists, licensed clinical social workers, nurse case 
managers, which speaks directly to de-stigmatization and trust. 
Similarly, there is a high number of cross referrals among the various 
care providers that demonstrates mutual support and clinical trust and 
reliance.
    In regard to Human Performance, our athletic trainers, strength 
coaches and physical therapists provide tailored and operationally 
relevant programs have resulted in injury reduction and increased 
recovery time from injuries with a direct impact to overall team 
readiness.
    Our Warrior and Family Support staff provide hands on, personal 
touch and connection to our families and children, connecting them to 
all the Service-provided and SOF-unique programs that are so vital to 
the strength and resilience of our family members.
    We have also learned that long-term physical and psychological 
challenges may result in impacts to one's memory, attention, processing 
speed, problem-solving, visuospatial function and impulse control which 
can affect operational performance and mission accomplishment. Given 
that we are in the longest continuous stretch of armed conflict in our 
history, learning about the cognitive health of our force is a critical 
initiative.
    We have initiated a Cognitive Surveillance Program that will be a 
more pre-emptive approach to intervention where cognitive impacts are 
indicated. More broadly, this initiative will seek to identify injuries 
earlier, track individual trends, and assist in developing 
comprehensive treatment plans to aid in the recovery of our service 
members. The end-state is to get NSW operators back into the fight 
while contributing to their long-term wellness.
    The Surveillance Program entails an initial baseline screening of 
all SEAL/SWCC operators within NSW by 30 June 2018; and ongoing re-
testing every 2 years to assess significant change, similar to other 
routine exams such as dental or audiogram.
    Aggressive efforts include increasing awareness of potential issues 
and not waiting for perfect solutions. Therefore, we are actively 
`driving the science' through our blast exposure research efforts, 
ultimately looking to create a `dive-table-like' approach to heavy 
weapons/breaching exposure levels and mitigation needs.
    NSW continues to seek and offer best practices as we develop our 
cognitive health emphases. We rely on education, informed research 
efforts, and leadership support across the continuum of care to help 
mitigate the range of brain injuries and increase recovery rates for 
our members.
    Part of that continuum of care focuses on our transitioning 
veterans, whether at 4 years or after forty, with a holistic, SOF-
unique initiative called Future Former Frogmen, or F3. F3 focuses on 
ensuring the successful transition of our active duty into civilian 
life by leveraging our neurocognitive science initiatives, continuum of 
leadership development efforts, readiness support programs, and 
veteran's resources. F3 provides structure, process and guidance 
throughout the complex transition experience giving the service member 
access to existing programs to ensure NSW veterans remain resilient. 
SOF for Life, a powerful support network, continues from active duty 
life to veteran life.
    Today in Coronado, California, at the Basic Underwater and 
Demolition / SEAL school, otherwise known as BUD/S, there are 
approximately 100 of America's best and brightest going through 
training to be part of the Navy's elite special operations maritime 
force as part of the most recent class, Class 330.
    Just like those seeking to be part of my brethren's communities, 
those seeking to be part of the SEAL community, those who succeed in 
the 63-week course will earn their Trident.
    At the end of 63 weeks, each student will have swam 48 miles; hiked 
or patrolled over 150 miles; and conducted at least 40 dives while 
spending a minimum of 60 hours, or two and a half days under water. As 
a class, at the end of those 63 weeks, they will have completed the 
equivalent of swimming from Cuba to the southern tip of Florida, then 
running to New York City.
    That is just a snapshot of what we ask them to do before they have 
taken their first step into their first operation in defense of our 
country. It is precisely because of what we ask them to do, starting in 
Coronado, then around the world, through operation after operation, 
that we are focused on their long-term health, and the well-being of 
our Force and Families.
    Naval Special Warfare Command will continue to place priority on 
strengthening, equipping and protecting our people; outpacing our 
enemies in the employment of new technologies and accelerating trends, 
enabling us to compete below the threshold of conflict. We will refine 
and adapt our organizational structure to ensure Naval Special Warfare 
remains relevant and lethal, and when necessary, stands ready, willing 
and able to engage in combat to fight and win decisively for many years 
to come.
    Thank you for your time, your care for our Naval Special Warfare 
community, and I welcome the opportunity today to answer your 
questions.

    Senator Ernst. Thank you, Admiral.
    General Mundy, please.

   STATEMENT OF LIEUTENANT GENERAL CARL E. MUNDY III, USMC, 
   COMMANDER, MARINE CORPS FORCES SPECIAL OPERATIONS COMMAND

    Lieutenant General Mundy. Chairwoman Ernst, Ranking Member 
Heinrich, thank you for providing me with the opportunity to 
appear before you this morning.
    I have the honor of serving as the sixth Commander of 
Marine Corps Forces Special Operations Command, or MARSOC 
[United States Marine Corps Special Operations], as it's more 
commonly known. I very much look forward to telling you about 
MARSOC and what your Marine Raiders are doing to help protect 
the American people.
    MARSOC is the Marine Corps' contribution to U.S. Special 
Operations Command, and it's the youngest of the four SOF 
service components, having been established just 12 years ago, 
in 2006. However, our roots extend back to World War II, when 
President Franklin D. Roosevelt, determined to bring the war to 
our enemies as rapidly as possible, considered the Marine Corps 
to be an ideal organization for the President's vision of 
commando operations. So, in January 1942, the Marine Corps 
established two Raider battalions, with the missions of 
conducting raids against Japanese-held territory in guerrilla-
type operations behind enemy lines.
    In that historical mold, MARSOC today produces Marine 
Raiders to conduct full-spectrum special operations to combat 
complex transregional problems in support of geographic 
combatant commands. MARSOC does this by building upon the 
unique attributes and ethos that we already bring to the table 
as marines. On top of our bedrock marine identity, we add an 
assessment and selection process demanding individual skills 
and realistic world-class collective training to produce agile, 
enabled, and responsive marine SOF. Our Raiders comprise a 
tight-knit community of specially selected and trained 
critical-skills operators and combat and combat service support 
specialists that are task organized for every mission.
    Like my fellow component commanders here today, I execute 
title 10 authorities as the MARSOC Commander to man, train, and 
equip SOF, and then provide them to SOCOM for missions that 
support the geographic combatant commanders. Our authorized 
strength is approximately 3,000 marines and sailors along with 
200 civilians. All together, we represent just over 4.5 percent 
of SOCOM, and we account for 2 percent of its annual budget.
    Although able to support operations globally, the majority 
of our forces deploy to Central Command, Africa Command, and 
Pacific Command regions. MARSOC's base unit of deployment is a 
Marine Special Operations Company, or MSOC, which we provide 
persistently on a 6-month rotation to each of these regions. On 
average, MARSOC has approximately 400 Raiders deployed across 
18 countries, performing various special operations tasks. 
Currently, our special operators average 1 day overseas for 
every 1.9 days at home, and our capability specialists, such as 
communicators, intelligence specialists, explosive ordnance 
disposal technicians, and the like, tend to have a higher tempo 
that varies from between 1.5 and just less than 1 day at home 
for every day deployed. While high, this operational tempo is 
manageable. We continue to benefit from MARSOC's Preservation 
of the Force and Families Program as a critical tool to 
maintain the health of our force. We pay close attention to the 
behavioral health of individual Raiders, and are always looking 
to expand and innovate the individual programs and services we 
provide to their families to relieve them of the strains of 
ordinary life, increase their resiliency, and help them better 
manage the stresses associated with frequent operational 
deployments. Our people, not technology or any other particular 
capability, represent our most precious resource. It's one that 
we must preserve and cultivate as we look to the future.
    My priorities within the command reflect both MARSOC's 
commitment to its people as well as the requirement to develop 
the--for the future. They are, first, to provide integrated 
full-spectrum SOF; second, to better integrate the capabilities 
of SOF with the Marine Corps's air-ground teams; third, to 
develop MARSOC's future force; and, finally, to preserve our 
force and families. MARSOC is full of supremely talented and 
dedicated Americans, and I feel especially privileged to be 
able to represent these fine women and men to you today.
    I'll close by saying, once again, that it's an honor to be 
here today and to speak to you about our mission. Thank you, as 
well, for what you do for our Nation and our military, 
particularly the support that you provide in terms of funding 
and oversight. I appreciate your interest in MARSOC and look 
forward to your questions.
    Thank you.
    [The prepared statement of General Mundy follows:]

         Prepared Statement by Major General Carl E. Mundy, III
                              introduction
    Marine Raiders are the Marine Corps' contribution to United States 
Special Operations Command (USSOCOM). Through specialized and advanced 
training, MARSOC builds upon its unique attributes and ethos as Marines 
to produce agile, scalable, fully-enabled, and responsive special 
operations forces (SOF) comprised of operators and special operations-
specific combat support and combat service support specialists. MARSOC 
formations task organize for every assigned mission and leverage their 
robust command and control capability and their ability to fuse 
operations with intelligence down to the team level. All of these 
factors enable our Raiders to succeed in distributed environments and 
enable partners at the tactical and operational levels of war. MARSOC 
contributes to the SOF enterprise and U.S. combatant commands by 
providing full spectrum special operations capabilities to combat 
complex transregional problems.
    Established in 2006, our organization continues to address the most 
immediate threats to our Nation and has become a key participant in the 
ongoing fight against violent extremist organizations. Accepting this, 
we are also cognizant that we must work to minimize pressure on our 
force and our families as we simultaneously prepare for future threats. 
We ensure preparedness by adapting our training methods using feedback 
from currently deployed forces to better prepare our Raiders for what 
they will encounter while deployed. Simultaneously, we minimize 
pressure on the force by ensuring adequate access to Preservation of 
the Force and Families (POTFF) resources. We recognize that our 
operational capability ultimately rests upon a foundation of 
outstanding individuals and their families. In order to safeguard and 
sustain MARSOC's human capital, our most valuable resource, we 
continually strive to balance operational commitments with time Raiders 
spend at home station. Part of our effort to take care of families 
involves ensuring that our POTFF program not only delivers responsive 
and effective support, but that it continues to evolve with changing 
demands and needs of our force.
                               background
    During my tenure as the Commander of MARSOC, I have continually 
been impressed by the caliber of our individuals, be they marines, 
sailors, or civilians. They are well trained, well equipped, and 
provide the full spectrum special operations capability that has been 
crucial to success on the modern battlefield in places as diverse as 
Mali in West Africa, contested areas of Iraq, and Marawi in the 
Philippines. Twelve years on, MARSOC is maturing into a full and 
integral member of the SOF enterprise just as it continues to provide 
Raiders to counter our Nation's threats. Taking into account where 
MARSOC is today, we would be remiss if we did not acknowledge some of 
the formative episodes in the history of our Marine Corps that got us 
here.
    The United States Marines Corps' rich history is one that is 
replete with expeditionary operations against what we know today as 
irregular threats. These actions serve as the foundation for what is 
Marine Corps Special Operations today. Although the United States 
Marine Corps (USMC) did not provide a service component to the United 
States Special Operations Command (USSOCOM) until 2005, the Marine 
Corps has demonstrated an ability to conduct and support special 
operations throughout its history.
    In the early years of America's involvement in World War II, 
President Franklin Delano Roosevelt was determined to bring the war to 
our enemies as rapidly as possible. Because of the Marine Corps' 
historical successes in small wars and its recent development of 
amphibious operational concepts, it was considered to be the ideal 
parent organization for the president's vision for ``commando'' 
operations.
    In January 1942 the United States Marine Corps established two 
Raider battalions. The mission of the new Raider units was to spearhead 
amphibious landings, conduct raiding expeditions against Japanese held 
territory, as well as conduct guerilla-type operations behind enemy 
lines for extended periods. Marine Raiders were intellectually dynamic, 
morally disciplined, and physically fit with an irrepressible sense of 
duty, loyalty to one another, and imbued with a ``Gung Ho'' spirit in 
the face of adversity . . . much like the marines and sailors we select 
and train as Raiders today.
    During the Vietnam War and throughout the Cold War era, the Marine 
Corps did not formally possess a specialized unit. However, many 
Marines were members of specialized Joint and certain, tailored 
conventional units, such as force reconnaissance and Marine 
Expeditionary Units (Special Operations Capable). These units performed 
some of the types of missions we associate with Special Operations 
today. The complex global environment produced by the end of the Cold 
War as well as the world changing events of September 11, 2001, 
prompted an almost immediate need for additional special operations 
capacity capable of achieving operational and strategic effects. In 
light of these events and the pressing need for more SOF, Secretary of 
Defense Donald Rumsfeld called for the Marines to work more closely 
with USSOCOM.
    After validating an initial proof of concept in 2004 known as the 
Marine Corps Special Operations Command Detachment (DET One), the 
Secretary of Defense directed the Marine Corps to provide a permanent 
contribution to USSOCOM--what would become Marine Corps Forces, Special 
Operations Command--in November 2005. On 24 February 2006, MARSOC 
activated at Camp Lejeune, North Carolina as a service component 
assigned to USSOCOM. MARSOC today comprises a headquarters, one Marine 
Raider Regiment, one Marine Raider Support Group, and the Marine Raider 
Training Center. The Command has forces on both the east coast at Camp 
Lejeune, North Carolina, and on the west coast at Camp Pendleton, 
California. Presiding over a total force of approximately 3,000 
marines, sailors, and 200 Federal civilians, the Command is employed 
across the globe executing special operations missions in support of 
SOCOM and the geographic combatant commands that span the SOF core 
activities. With a focus on counterterrorism, direct action, special 
reconnaissance, foreign internal defense, security force assistance, 
and counterinsurgency, your modern-day Raiders also have the capability 
to directly support hostage rescue and recovery, countering of weapons 
of mass destruction, unconventional warfare, foreign humanitarian 
assistance, military information, and civil affairs operations. In 
order to achieve success and provide full spectrum capability across 
this wide swathe of core activities, we must prioritize our efforts.
                           marsoc priorities
    Understanding our role as a force provider and capability generator 
within the SOF enterprise, we have taken the SOCOM Commander's 
priorities of ``Win, Transform, and People,'' and applied them to how 
we prepare our forces to accomplish assigned missions. To this end, 
MARSOC currently focuses on four priority areas: the provision of 
integrated full spectrum SOF, capabilities integration between SOF and 
Marine Air Ground Task Forces (MAGTF), future force development, and 
the preservation of the force and families.
Priority 1: Force Provider
    Our first priority is to provide integrated full spectrum SOF that 
are task organized, trained and equipped to accomplish assigned special 
operations tasks. At any given point in the year, MARSOC has 
approximately 400 Raiders deployed across 18 countries carrying out 
assigned missions. We maintain three, forward task organized Marine 
Special Operations Companies; one each in Central Command, Africa 
Command, and the Pacific Command areas of responsibility. In addition 
to company-level deployments, we maintain one persistent O-5 
(Lieutenant Colonel) level Special Operations Task Force in Central 
Command and a one-third rotational split with Naval Special Warfare 
Command for an O-6 (Colonel) level Combined/Joint Special Operations 
Task Force Headquarters, also in Central Command. At every level, these 
deployed formations bring integrated capabilities across all functional 
areas and allow us to operate across the full range of special 
operations missions. We believe that it is these high-end capabilities 
that provide our forces with a competitive edge against the adversaries 
we face.
    Providing our force begins with the recruitment process and 
continues through our assessment, selection, and individual training 
pipeline. We are focused on recruiting the best individuals from across 
the Marine Corps. Based on the results of our deployed forces and 
feedback from supported commanders, our recruiting and selection 
methods are working. Our training is progressive. As individuals earn 
new special operations specialties, they are moved to teams or special 
skills training environments. This training continues until deployment 
and covers everything from individual skill sets to high-end, advanced, 
complex unit collective training.
    In order to assess and certify Marine Special Operations Companies 
for deployment, MARSOC has created the RAVEN exercise. Held six times 
each year, RAVEN emphasizes realistic decision making for company and 
team commanders and provides a venue to practice the full planning, 
decision, execution, and assessment cycle. Alternating between 
Gulfport, Mississippi and Smyrna, Tennessee, RAVEN is a living exercise 
that enables MARSOC to incorporate the most current lessons from our 
deployed units as well as anticipated enemy actions inform and support 
ongoing joint contingency planning. For example, our most recent RAVEN 
conducted in Tennessee, featured a more robust foreign intelligence 
threat that undertook both physical and technical surveillance against 
our Marine Special Operations Teams. During this RAVEN we also exposed 
our teams to the degraded communications environment we would expect to 
encounter when facing a near-peer/emerging competitor.
    The training environments we create are dynamic. Not only do they 
prepare our Raiders for the current operational challenge, but they 
also evolve based on emerging threats and our expected participation in 
support of standing operational plans. Another benefit of the RAVEN 
exercises is its utility as a venue for integrating conventional Marine 
Corps resources into what is otherwise a SOF-centric exercise.
Priority 2: Capabilities Integration with MAGTFs (Interoperability, 
        Integration, and Interdependence)
    Second, we provide a bridge for routine capabilities integration 
with SOF and the deployed Marine Air Ground Task Forces to fully 
maximize the complimentary capabilities of each formation; especially 
in light of near-peer/emerging competitors. Given the threats present 
on contemporary battlefields and considering those we expect to face in 
the future, it has become increasingly important for SOF to be able to 
integrate ``seamlessly'' with the conventional forces and vice versa. 
Conventional forces offer capabilities and a capacity that simply do 
not exist in our small formations. In today's complex operating 
environment, the extent to which we, across the Joint Force, are able 
to leverage one another's strengths, and thereby offset our 
vulnerabilities, could determine the difference between success and 
failure. Cyber and space based capabilities, intelligence exploitation, 
mobility, fire support, logistics and medical support, are all examples 
of capabilities that we partially rely on conventional forces to 
provide- especially in scenarios involving high intensity combat.
    Examples of interoperability and capabilities integration occur 
every day across the globe from Syria and Iraq, Afghanistan, the 
Philippines and remote locations in Africa. With deliberate efforts to 
participate in each other's wargames, exercises, and training, we can 
institutionalize these efforts to the point that they become routine.
Priority 3: Future Force Development
    As the operating environment evolves and more complex threats 
emerge, MARSOC must adapt its force to meet these new challenges. 
Constant and deliberate innovation, and evolution is critical to our 
success. Our concept for development is based on both a bottom-up 
driven process that incorporates immediate battlefield feedback into 
our training curricula, equipment research, testing, procurement; and a 
top-down approach that combines more traditional capability acquisition 
processes with longer-term future concept and wargaming efforts.
    Regarding equipment development and acquisition, we are tightly 
integrated with SOCOM and the Marine Corps and look forward to 
benefiting from the ongoing efforts of SOCOM's Acquisition Technology & 
Logistics, SOFWERX, and the Marine Corps' Rapid Capabilities Office. 
All of these organizations offer us an expedited procurement process 
for emerging technology. We have already taken steps to bring our 
vision to fruition with regard to capability development in particular 
technology areas. These include freeze dried plasma, semi-autonomous 
seeing and sensing capability, organic precision fires, counter-UAS 
rapid self-defense, unmanned cargo UAS and ground systems, rapid fusion 
of big data analytics and machine assisted learning, broadband tactical 
edge communications, and specialized insertion capabilities. As we 
research and improve our warfighting capabilities, we must kept in mind 
that our near-peer/emerging competitors are also making similar 
advances and investing in emerging technology. It is critical that we 
ensure that the technological capabilities we opt for are able to 
operate, communicate, and self-heal in a signals degraded environment.
    Likewise from a training perspective, we recognize the need to 
simulate operations in a degraded/denied communications environment 
that reflect what we might face when confronting near-peer/emerging 
competitors. We also plan to continue to improve our proficiency in the 
critical combined arms skills that both increase our lethality and 
allow us to maintain a tactical advantage over our adversaries. Last, 
we acknowledge that we must be able to operate in any clime and place, 
therefore we are committed to training in environments that replicate 
the full range of what we may experience on the battlefield.
    Complementing our near and mid-term efforts at capability 
development is longer term work on the development of a MARSOC-specific 
futures concept. Although this concept bears a resemblance to similar 
initiatives undertaken with the Department, it very much reflects 
MARSOC's unique place within SOF and interpretation of what the future 
operating environment might look like. We see a world overwhelmingly 
influenced by a resurgence of regional competition and instability. As 
these two themes collide, the complexity of the operating environment 
will dramatically challenge the ability of leaders at all levels to 
first, understand what is happening and, second, make sound decisions. 
This is the very situation in which Raider formations of the future 
must be prepared to operate; an urgent, volatile, complex, high-stakes 
problem that comprises multiple actors and defies the application of 
traditional U.S. strengths and solutions.
    The results of our futures analysis, conducted over the past 18 
months, have provided broad implications for the force as well as 
options which MARSOC can use to shape future capability to meet the 
challenges posed by the future operating environment. Throughout our 
internal wargame series, four discrete concepts or ``themes'' 
consistently emerged. Each theme describes a distinct aspect of a 
vision for MARSOC, but at the same time each built upon the others such 
that the four are interconnected and mutually supporting. Together they 
provide a strong conceptual basis for a future MARSOC force that 
outpaces changes in the operating environment and remains a reliable 
force across warfighting and Title X functions. Collectively, these 
themes have come together to form the four, core pathways of 
innovation: MARSOF as a Connector, Combined Arms for the Connected 
Arena, The Cognitive Operator, and Enterprise Level Agility.
    Our futures vision document, MARSOF 2030 explains each of these 
innovation pathways in depth and also explores how they interconnect 
with one another. I will briefly introduce them here for the benefit of 
the committee. ``MARSOF as a Connector'' is intended to capture 
MARSOC's facility in building cohesive, task organized teams. It is the 
idea that MARSOC can be the ideal integrator and synchronizer of U.S. 
Governmental capabilities with USSOF and partner nation actions. It 
also acknowledges the non-military nature of many of the problems we 
face and the need to look beyond for more durable solutions that 
involve tools other than the military.
    ``Combined Arms for the Connected Arena'' aims to get at the 
requirement to ``sense'' and ``make sense of'' what is happening in 
diverse and multi-dimensional environments. This second pathway also 
speaks to the use of cyber and information ``domains'' as potential 
venues for conflict now, but certainly with increasing relevance as we 
look toward the future. From our standpoint, we must become as 
comfortable operating in these ``virtual'' domains as we are in the 
physical.
    Perhaps the most foundational of all of our innovation pathways is 
``the Cognitive Operator''. This pathway touches all others. At its 
core is the idea that the future requires a SOF operator with an equal 
amount of brains to match the brawn; foresight in addition to 
fortitude. Your future Raiders must preside over expanded capabilities 
that include the ability to influence allies and partners; understand 
complex problems; apply a broad set of national, theater, and 
interagency capabilities to those problems; and fight as adeptly in the 
virtual space as the physical.
    The last innovation pathway, ``Enterprise Level Agility'', 
leverages MARSOC's relatively small size as an advantage. MARSOC 
possesses the advantage of being a relatively small force with its own 
component headquarters--this allows the command to rapidly reorient the 
organization to confront new challenges as they emerge. In other words, 
MARSOC's organizational dexterity can provide SOCOM with an agile, 
adaptable force to meet unexpected or rapidly changing requirements. In 
this context, MARSOC's small size becomes a strength; one that can 
provide both institutional and operational agility to the SOCOM 
Commander.
Priority 4: Preservation of the Force and Families
    Calling to mind the SOF Truth that ``people are more important than 
hardware,'' our fourth priority is the preservation of our force and 
families program that provide our Raiders and their families with the 
access to resources promoting personal resiliency increasing longevity 
in service. Although listed as my fourth priority, preservation of the 
force and families is equally as important as the previous three 
priorities because people are at the heart of all we do. Currently, 
MARSOF special operators average 1 day overseas for every 1.9 days at 
home. Our capability specialists that enable communications, 
intelligence, air support, explosive ordnance disposal, and our canine 
handlers, vary by occupational specialty but average between 1 to 1.7 
and 1 to 1.2 days deployed as opposed to days spent at home station. 
What these numbers do not reflect is the additional time that is spent 
away from home while training in CONUS. Although difficult to measure, 
Personnel Tempo or PERSTEMPO receives significant attention at all 
leadership levels within the Command such that we aim to balance our 
service members' schedules between training at and training away from 
home station.
    Because of this high operational tempo, POTFF has become an 
integral tool for maintaining the overall health of our force through 
programs that are focused on improving human performance, providing 
resources for behavioral health, developing spiritual fitness, and 
offering other family-oriented opportunities that are designed to 
strengthen the family unit. We appreciate the continual support from 
Congress on providing the funding for programs and specialized 
capabilities to make these programs effective.
                       culture of accountability:
    Closely tied to these efforts, in concert with both SOCOM and the 
Marine Corps, is our command-wide push to enhance our culture of 
accountability as it relates to issues such as sexual misconduct, 
illicit drug use, personal accountability, and unauthorized media 
release. As an example, our reported number of sexual assault cases 
remains in the low single digits and we have not had any victim 
reported incidents in fiscal year 2018. We attribute this low number of 
incidents to our constant command level messaging campaign and our 
strong Sexual Assault Prevention and Response (SAPR) program. While we 
believe that even a single incident is one too many, we continue to 
strive to eradicate sexual and other forms of misconduct from our 
force. We strive each day to provide you SOF personnel that continue to 
embody the values of accountability, integrity, and commitment in 
honorable service to our nation.
                              conclusion:
    In conclusion, I am committed to providing Marine Raiders that 
provide the nation with full spectrum special operations capability and 
whose actions continually demonstrate our motto of Spiritus Invictus, 
or ``unconquerable spirit''. Your Marine Special Operators will remain 
always faithful, always forward. I thank the committee for your 
continued support of our military members and their families and also 
for your commitment to national security.

    Senator Ernst. Thank you, General.
    Again, gentlemen, thank you. Excellent opening statements.
    In your opening statements, you did very briefly go through 
the skillsets that are particularly unique to your own 
components. If you could, just--and each of you, just briefly 
answer--within those skills, those operators, the equipment 
that you have, what gaps do you see, whether it's within your 
own component or even between the components, that exist within 
SOCOM?
    General Webb, if we could start with you, please.
    Lieutenant General Webb. Madam Chairwoman, the--we contend, 
at Air Force Special Operations Command, that our Nation needs 
us to be a full-spectrum force, with a focus on the low and 
high end. As I said in my opening statement, with a--we want to 
continue to hone to a fine razor's edge those low-end 
capabilities that we have done over the last, you know, decade 
plus. But, on the high end, it's both conceptual and 
technology-wise that we need to look--What can we do with 
weapons--major weapon systems that we already have today, in 
new and unique ways? Also, looking out to that next horizon, 
what are those technologies, such as specialized mobility for 
long range, long distance in contested environments, that could 
still land vertically, that I think we want to continue to 
pursue, as well as ensuring that the equipment on the--onboard 
our current systems measure up to the threat that is 
potentially out there.
    Senator Ernst. Yeah.
    Lieutenant General Webb. Those are the major pieces.
    Senator Ernst. Very good. Thank you.
    General Tovo.
    Lieutenant General Tovo. Senator, just a couple of things. 
First, I wouldn't identify them necessarily as a gap, but a big 
part of our challenge has been time to train. So, part of our 
ability to regain balance in the force and both preserve our 
forces from an OPTEMPO [Operational Tempo] overuse has been to 
put more time on the training schedule so that they--we can 
address that expanded set of skills we need to train against. 
So, that's already ongoing.
    We are always in a continual struggle, much like Rod's 
force, to make sure that our air systems are able to penetrate 
the variety of threats that our adversaries are fielding to 
deny us access. So, that is a constant challenge. It's not a 
new challenge, but it is one that we're always working to 
address.
    Senator Heinrich talked about the information domain and 
our tools to compete with our adversaries in that domain. That 
is something that we're looking at very closely, on how do we 
get beyond loudspeakers and leaflets, and really get our psy-op 
[psychological operations] capability to be able to wield 
operational and strategic-level tools. A big part of that, 
though, is not about tools so much as it is about the 
authorities and permissions to use them, and how we, as the 
U.S. Government, decide to divvy up the information domain in 
this competitive space, and what agency and executive branch 
owns what responsibilities.
    So, it's just a couple of the highlights. I'll----
    Senator Ernst. Very good.
    Lieutenant General Tovo. We can certainly go further if 
you'd like.
    Senator Ernst. Thank you.
    We'll go on to the Admiral. Thank you.
    Rear Admiral Szymanski. Chairwoman, I wouldn't express them 
as gaps, either, but I think I've got three that I'd like to 
kind of highlight.
    First, I'll start with people. I think, in the people 
space, this is the--you know, in places like Iraq and Syria, 
we're using the virtual advise-and-assist kit. I really believe 
that SOF can be on the vanguard, particularly on the near-peer 
competition below the threshold of human-machine teaming. I 
think that that's a growth area for SOF in this space.
    Second is really returning to the unique special maritime 
capabilities that Naval Special Warfare possesses, but in 
concert or in interoperability with the Navy. I think, as we 
look at near-peer access into AZAD or anti-access denied areas, 
we have something to offer there, but we've got to be--my 
capabilities have got to be compatible with the Navy's 
platforms, its ships, its submarines. We're making a huge 
effort to close, if there is a gap there, but ensure that we're 
completely compatible.
    Third, coming back to the people, one area that's of 
particular interest to me is neuro-cognitive health and the 
long-term sustainment of our individuals, both for the low-end 
fight and the high-end fight. We're learning some things about 
the brain that we haven't learned before, and exposure to blast 
trauma and blast, low-level blast exposure, that I'm looking to 
really kind of close that gap and drive the science.
    Senator Ernst. Thank you, Admiral. I appreciate that. 
Visiting your Mind Gym, that was very important to me. I'll 
come back here in a little bit and we'll talk a little bit more 
about some of those efforts, as well.
    Thank you.
    General Mundy.
    Lieutenant General Mundy. Senator Ernst, just briefly. In 
addition to time to train, our number-one priority is gaining 
the personnel that allows MARSOC to build out to the original 
number that it was supposed to be. And so, we're shy of some 
critical enablers that would help us buy down the individual 
readiness numbers that I articulated in my opening statement 
that would allow us to be able to focus on preparing the force 
to meet the emerging threats. So, our number-one priority is 
people, gaining; I think the number is 368 right now.
    Senator Ernst. Okay.
    Lieutenant General Mundy. Thank you.
    Senator Ernst. Wonderful. Thank you.
    Thank you, gentlemen.
    Next, we'll move to Senator Heinrich for his questions. 
Then we have been joined by Senator Dan Sullivan, as well. Not 
a regular member of our committee, but certainly, Senator 
Sullivan, after Senator Heinrich is done, if you would like to 
ask questions, feel free to do so.
    Thank you.
    Senator Heinrich. General Webb, I'd like to start with you. 
I was at Cannon Air Force Base in New Mexico last week, and, as 
you know, the proud airmen at Cannon and the community there in 
Clovis provide significant contributions to our national 
security, both in terms of the incredible personnel and also 
the aircraft that they operate. They do this despite really 
what has become an insatiable demand being placed on our 
Special Forces and their families, by extension. You mentioned, 
in your testimony, that AFSOC is working to meet a 1-to-2 
deployment-to-dwell for Active Force, which means 2 months at 
home for every 1 month deployed. Can you elaborate a little bit 
on why that deployment-to-dwell ratio is so critical to the 
long-term health of Special Forces, and what progress still 
needs to be made in that area?
    Lieutenant General Webb. Well, Senator, thank you for the 
steadfast support to our Air Commandos out on the plains of 
eastern New Mexico. The deploy-to-dwell ratio for AFSOC stands 
at--I have 12 percent of my force that is below a 1-to-2 dwell. 
I have none that are below 1-to-1 at this point. But, the 
demands of multiple deployments, back-to-back, at this stage in 
the ongoing countering-violent-extremist type of fight, you 
have--it is not a rare exception at all for airmen to be on 
their 12th or 13th, 14th deployment, including those at Cannon 
Air Force Base. So, the POTFF [Preservation of the Force and 
Family] program and the Comprehensive Airman Fitness Program 
from the Air Force side, absolutely vital and critical.
    One statistic I would give you, Senator, from a POTFF-
result perspective, as we track our airmen as they--before they 
go out the door and as they return, using POTFF resources, we 
see 98 percent of our airmen return to ready-to-deploy-again 
status within 90 days of deployment. Just as a gauge of how 
useful that program is.
    Senator Heinrich. Twelve and 13 deployments. Have we 
experienced anything like that in the past?
    Lieutenant General Webb. Senator, not to my knowledge. I 
mean, obviously, these aren't year-long deployments.
    Senator Heinrich. Right.
    Lieutenant General Webb. They're measured in months. But, I 
mean, we're kind of in uncharted territory, which was really 
the genesis of the POTFF Program, to begin with.
    Senator Heinrich. Let me ask you a little bit about high-
energy lasers. I very much appreciate SOCOM's investment in 
high-energy lasers on the C-130 gunship, but I'm quite 
concerned with the sort of crawl-walk-run approach, when I 
think we're reaching a point in the technology where we could 
literally jump from crawl to run. Let me tell you what I mean 
by that.
    It's my understanding that SOCOM's current plan is to demo 
a 4-kilowatt laser and then one in the 30-kilowatt range, which 
really isn't operationally relevant for SOCOM's purposes, in my 
understanding, and then move to a 60-kilowatt-or-higher device. 
At that rate, the system won't be fieldable until nearly 2030, 
from what I understand. The technology to develop an 
operationally relevant laser in the 60-kilowatt range could be 
ready for integration and fielding, in my view, in the next 4 
to 5 years. If the technology is there, what's wrong with 
skipping the 30-kilowatt demo entirely and moving directly into 
something that can be used in the field?
    Lieutenant General Webb. Senator, on the front of this 
airborne high-energy laser, I would couch this as a semi-good-
news story. We're starting to see funding that would--could 
accelerate exactly what you're talking about. In fact, I don't 
disagree with your assessment at all. The--this presidential 
budget actually has money from a SOCOM and an Air Force and an 
OSD [Office of the Secretary of Defense] side, so I appreciate 
your continued support towards that 34 million. We're 58 
million short of having a full program that would get us a 60-
kilowatt laser flying on a AC-130 by fiscal year 2022. That 
should be the goal. Like I said, I don't disagree with you at 
all, and I----
    Senator Heinrich. We look forward to----
    Lieutenant General Webb.--would support you on that.
    Senator Heinrich. We look forward to helping you with that 
goal.
    SOCOM is the joint force proponent for military information 
support operations, or what we used to call psy-ops. SOCOM's 
military information support teams frequently deploy to 
embassies around the world, help with embassy public diplomacy 
efforts. How are SOCOM's information operations capabilities 
being transformed to a more effective--to more effectively 
compete with the operational and strategic messaging challenges 
that we see in our adversaries today? Can you talk about that a 
little bit more, General Tovo?
    Lieutenant General Tovo. Yes, Senator. We have invested 
fairly heavily in our psy-op operators, developing new 
capabilities, particularly to deal in the digital space, social 
media analysis and a variety of different tools that have been 
fielded by SOCOM that allow us to evaluate the social media 
space, evaluate the cyber domain, see trend analysis, where 
opinion is moving, and then how to potentially influence that 
environment with our own products. As I mentioned, we have the 
knowledge and the skills to operate in this domain. Much of the 
difficulty lies in getting----
    Senator Heinrich. Getting the authorities.
    General Tovo.--the appropriate authorities and permissions 
to do so.
    Senator Heinrich. Well, and let us know what your views are 
and how you think those should be organized.
    Lieutenant General Tovo. Senator.
    [The information referred to follows:]

    Lieutenant General Tovo. I defer to the Office of the Secretary of 
Defense and US Special Operations Command to provide the Department of 
Defense view on military information operations authorities.

    Senator Heinrich [presiding]. Senator Sullivan, welcome. We 
really appreciate your interest in the committee. The time is 
yours.
    Senator Sullivan. Great, thank you, Mr. Chairman.
    Gentlemen, welcome.
    I wanted to start--and, General Howell, maybe I can begin 
with you, but I guess this is a question really for all the 
witnesses--but, certainly the counter-WMD [weapons of mass 
destruction] mission is one of the most important and, really, 
kind of, evergreen missions that our country will have. We can 
defeat ISIS, we can defeat al Qaeda, but, as long as we have 
the great republic that we defend, the counter-WMD mission is 
going to be top priority.
    U.S. SOCOM recently took over responsibility of that. I've 
had a number of conversations with General Thomas about that. 
How do you think it's going? It's not like your forces don't 
have a lot on their plate, and now they're taking the lead on 
probably, in some ways, the most important mission we have in 
the U.S. military, from my perspective. Are you concerned about 
integrating this top priority with other priorities that you 
have? Are there other things that we need to be doing, in terms 
of authorization or resources, to enable U.S. Special 
Operations Command to carry out this mission, which we can't 
fail at?
    Lieutenant General Howell. Senator Sullivan, thank you for 
the question.
    As you noted, the counter-WMD mission was passed to U.S. 
SOCOM a couple of years ago. We've been investing heavily in 
that. We have been designated by the Department as the 
coordinating authority for counter-WMD. We've been--which gives 
us a--an opportunity to bring together the community of 
interest to plan, establish intelligence priorities. What it 
has done, thus far, and in close integration with our 
colleagues from the Defense Threat Reduction Agency, is 
bringing together the interagency to one area to look at the 
problem globally, look transregionally across the boundaries of 
the GCCS [Global Combatant Commands] and kind of develop the 
intelligence picture in the priorities. We're also looking at 
reaching out more to our international partners, who are in 
this space as well, through EUPOL [European Union Police 
Mission], INTERPOL [International Criminal Police 
Organization], law enforcement, as well as our military 
colleagues from the alliance and coalition elsewhere.
    I would say, right now, Senator, we--there's no specific 
asks for us right now. We're still developing it. We're 
developing a functional campaign plan that we owe back to the 
Department and to provide assessment on the way ahead. I think 
we're----
    Senator Sullivan. A lot of that work is probably left of 
launch and involves Federal agencies that aren't necessarily 
military agencies, but like the CIA [Central Intelligence 
Agency] and other intelligence agencies. Do you think the 
coordination, particularly with regard to the networks--I mean, 
it seems, as we are pressuring North Korea right now, that the 
proliferation threat has probably never been higher. I also 
believe it's still very, very high, regardless of the JCPOA 
[Joint Comprehensive Plan of Action], with regard to Iran. Both 
countries have a long history of proliferation. Do you think 
that the networks that we need to disrupt those networks are in 
place? Is there sufficient integration, say, between the SOF 
forces and the CIA and other elements of the Federal Government 
that work to defeat those networks?
    Lieutenant General Howell. Sir, thanks for the question. I 
think the--the short answer is yes. I think the cooperation----
    Senator Sullivan. Do we have enough resources on that side, 
do you think?
    Lieutenant General Howell. There are so specific asks yet, 
because we're still, you know, building the functional campaign 
plan and building the picture. But, I would say the interagency 
cooperation is exceptional in this area. As you described in 
the beginning of your comment, staying well left of the shot is 
our goal here. That's success for us. I think we're well-
postured with our interagency partners to be in position of 
advantage to do something when the opportunity arises.
    Senator Sullivan. Let me ask another question that kind of 
relates to--and again, I've talked to General Thomas and 
Secretary Mattis about this, but, you know, as we have a new 
National Defense Strategy, which I think has bipartisan support 
in the Congress, and that's focused much more on kind of peer 
rivals and great-power threats, that it's a shift, of course, 
from the terrorists and al Qaeda and post-9/11 focus, which, at 
the time, I think was appropriate, but it's an appropriate 
shift. How are your forces--and this is for any and everybody--
how are your forces starting to implement that?
    Let me just give you an example. You know, in Afghanistan 
or, say, in parts of Africa, we have, I would call them, more--
and maybe not so much in Afghanistan, although it depends on 
the threat, but in Africa, a low-intensity threat, a terrorist 
organization that, while disruptive for that region, is not 
necessarily--poses a threat to the United States and our 
citizens, unless, of course, they're traveling there. Yet, we 
do have some of your forces that are focused on those areas and 
those threats. And, of course, you have the highest-trained, 
most valuable forces, in many ways, in the U.S. military.
    Are we starting to, kind of, shift, in terms of the great-
power focus, China, Russia, North Korea, in the special 
operations field, the way that the Secretary has laid it out in 
the National Defense Strategy? Sometimes I think a number of us 
worry that we have these incredible military members, that 
you're all in charge of, going after, you know, targets that, 
while, at some level, are disturbing, are not threats to our 
country. I mean, if we have a predator feed on a low-level 
Taliban guy on a motorcycle for 7 hours in Afghanistan, is that 
the proper use of your forces, relative to the threat, 
particularly in light of the National Defense Strategy that 
says the focus needs to shift? I'll open that up to anybody and 
everybody. What are we doing about it?
    Lieutenant General Tovo. Senator, I can tell you. I think 
what you're describing is really, how do we balance priorities 
worldwide? I think SOCOM's got a pretty good process that's 
fairly flexible and adaptable as the priorities coming out of 
the national capital region change. We've got the ability to 
kind of reevaluate where we have put our forces, and for what 
purpose.
    I will say, though, that if you look at our current 
worldwide disposition, we are already, I think, in many places, 
already doing what the National Defense Strategy tells us to 
do. If you look at the SOF commitment in Europe, for example, 
they are not purposed against a counter-VEO problem, for the 
most part. They are there in much of the Balkans, but also all 
over eastern Europe, helping partners and allies with just the 
challenge you described of an adversary state trying to disrupt 
our partners and allies. I think we are already in that 
methodology. You could say the same about some of our work in 
Korea and broadly across the
Pacific.
    Senator Sullivan. Do we need 1,000 troops in Niger, 
General?
    Lieutenant General Tovo. Sir, that's a question best asked 
of the operational commander at AFRICOM. I think part of what 
we've learned in the war on terrorism is that we've got a--an 
enemy that is willing and able to move his base of support 
globally, or certainly regionally, between Africa and southwest 
Asia. The question is, how much, as a Nation, do we want to 
invest in trying to help a partner nation preserve stability so 
a nascent threat or a growing threat doesn't get to the point 
where it truly is a strategic challenge to the U.S. That's kind 
of a daily conversation. Those conversations are happening to 
try and evaluate, how much do we invest in Niger compared to, 
do we shift forces to some other threat?
    Senator Ernst [presiding]. Thank you.
    Senator Sullivan. Thank you, Madam Chair. I have to go 
preside right now.
    Senator Ernst. Okay.
    Senator Sullivan. Otherwise, I would stay around for----
    Senator Ernst. Well----
    Senator Sullivan. Very interesting. Thank you for your 
service, gentlemen. To all the men and women under your 
command, we very much appreciate what they're doing.
    Senator Ernst. Thank you for joining us, Senator Sullivan. 
We appreciate that.
    We will do just a very quick round, with Senator Heinrich 
and I, before we move into a closed session.
    So, I do want to go back. Admiral, we talked about the Mind 
Gym. Many of you have brought up POTFF, which has been really 
important to me. You have mentioned the dwell time, the minimal 
dwell time that your operators have, how about all comes 
together, how it's affecting them. The operators are put in 
very difficult circumstance. Many of them return home and have 
physical difficulties.
    I'll share one story with you. I had the opportunity to 
visit Fort Bragg, just a couple of years back, and a very, very 
good friend of mine was with a group there, a Special Forces 
group. I had the opportunity to go to THOR3 [Tactical Human 
Optimization, Rapid Rehabilitation and Reconditioning Program] 
with him and do one of his workouts. I'm not embarrassed to say 
I had my rear end kicked by a one-legged man as we went through 
some of his training. But, it demonstrated to me how important 
these programs are in getting our operators back to where they 
need to be, whether they will reengage in the fight or whether 
they will prepare to be medically discharged.
    So, if you could, from your own experiences across the 
panel, please explain to me why you think POTFF is important. 
What have you seen with your operators to demonstrate why it's 
important?
    General Webb?
    Lieutenant General Webb. Madam Chairwoman, as I said--and, 
in fact, my command chief, Chief Smith, and I were just at 
Walter Reed visiting one of our wounded airmen that was there, 
had been shot in Afghanistan last year. You know, his point to 
me was, he's got 22 months til his team goes out the door 
again. He's got a left arm that he needs to get back in full 
shape. His mindset is already there. That is one vignette. Of 
course, there's a ton at this table that you could go to. But, 
it's that kind of resourcing and that kind of mindset that's 
instilled, you know, mind, body, spirit-wise, from our airmen, 
in my case, that is a really--a difference-maker. That gets 
driven home every time we have one of these visits.
    Senator Ernst. Thank you.
    Lieutenant General Tovo. Senator, I think it's important to 
understand that the capability that we get out of a military 
treatment facility is really designed to return an individual 
to a baseline of performance, and that the--our programs within 
POTFF are designed to try and not only get--to pass that 
baseline, really to get to that full high level of performance 
that we demand out of our special operators. From a performance 
perspective, it's kind of the SOF ad, if you will. You know, 
it's the P-11 slice of what the services have invested in.
    But, rather than talk about, you know, kind of, the numbers 
of the program and access to care and all those great things 
that POTFF has allowed us to do, I would just share that, as I 
go around and I talk to both soldiers and their families, what 
I hear, particularly from family members, is that over their--
the course of their career, they've heard an awful lot about 
support of families and how much we care about families and the 
soldiers, themselves. Many of them say, ``The first 
demonstrable thing we can point to that really shows you care 
about how much you're deploying my spouse and how much you're 
asking of them, day in, day out, combat deployment after combat 
deployment, are the POTFF program aspects that have truly 
focused on: How do we help our families not only survive this 
experience, but really thrive as Army Special Operations 
families?''
    Senator Ernst. Thank you.
    Admiral.
    Rear Admiral Szymanski. Thank you for--for all of us. A lot 
of it's about return to duty, as General Tovo just mentioned on 
the performance piece. It's return to duty, it's cutting down 
the recovery time. It's about extending the service life of the 
individual, and ensuring they have a good transition, post 
service, with a high quality of life. But, I think, in essence, 
it's improved the operational readiness of the organization. 
It's strengthened--your favorite word--resiliency of the 
families. When the family is strong, then the unit is going to 
be strong. I think that's it, in a nutshell. But, the cognitive 
piece is really important, again. I maybe can talk more in the 
closed session about that.
    Senator Ernst. Thank you.
    General Mundy.
    Lieutenant General Mundy. Just all of the above. That's 
pretty easy to just pile on top of that. It's important, 
because of the way that it fuses all aspects of readiness 
together--mental, spiritual, physical--and then the families, 
as others have alluded to here. And so, I get around. And in--
I'll just say, in 35 years, you can usually find someone who 
will critique a program or a process, but nobody in MARSOC 
critiques POTFF--MPOTFF, in our POTFF. It's invaluable to us.
    Senator Ernst. Thank you. I appreciate that.
    Senator Heinrich.
    Senator Heinrich. Thank you.
    General Tovo, I want to ask you a little bit about SFABs 
[Security Force Assistance Brigades]. As AFSOC forces have 
continued to experience increased demand from combatant 
commanders and particularly in an advisory role for foreign 
forces, how is the establishment of SFABs as dedicated advisors 
for conventional foreign forces affecting your ability to 
refocus on other essential missions?
    Lieutenant General Tovo. Senator, thanks for that question.
    I think it's important to understand that the Army's--Chief 
of the Army's design for the SFAB was really threefold. One was 
to prevent existing brigade units from being essentially broken 
down and piecemealed into combat advisory roles in Afghanistan 
or Iraq, as well as then to improve our ability to do advisory 
work as an army of conventional partners, and then, lastly, to 
have a cadre of leadership--NCO [noncommissioned officer] and 
officer leadership that, in the case of a national emergency, 
we could add the junior enlisted members to it and we'd have 
additional force structure.
    So, that's kind of the framework of why the SFABs are 
created. As you look at what they're doing right now--so, right 
now, the first SFAB is in Afghanistan, and most of what it is 
doing is trying to advise conventional Afghan formations--
formations that SOF was not partnered with--in order to better 
enable those Afghan formations to fill their role in the 
security environment. We are an indirect beneficiary of that.
    Senator Heinrich. Right.
    Lieutenant General Tovo. The challenge we had was, we were 
partnering with Afghan SOF forces that were doing great work 
clearing villages and valleys, and yet there was no hold force. 
I think this will help that. A better partnered conventional 
Afghan force will be able to fulfill a role that was missing. 
At this point, I don't see it supplanting what we are currently 
doing, though. We are working with Afghan Special Operations 
Forces, and they're going to focus on Afghan conventional 
forces.
    Now, sometime in the future, in other environments, can we 
see the SFAB employed doing some of the work that right now we 
have SOF teams doing? That's----
    Senator Heinrich. Sure.
    General Tovo.--certainly a possibility. Right now, it 
hasn't developed that way.
    Senator Heinrich. As we continue to stand up that entire 
enterprise, do you think it's going to be important for SFABs 
to have the ability to regularly train in the kind of 
environments where they will be in that supportive role?
    Lieutenant General Tovo. Senator, absolutely. One of the 
things, I think, that challenged the previous incarnation of 
SFABs, the regionally aligned forces, was not having the full 
authorities and funding mechanisms to deploy into the 
environments that they needed to be training in. So, I think, 
at some point, some kind of authority and funding mechanism, 
much like we use the JSET authority for, might be valuable for 
the Army.
    Senator Heinrich. Madam Chair, I'm going to yield back the 
rest of my time so we can get to our colleagues.
    Senator Ernst. Thank you.
    Senator Wicker.
    Senator Wicker. Tell me--whoever wants to answer this--
how's morale, servicewide? Have our troops noticed that 
sequestration is over and that things are looking up, in terms 
of resources? Who wants to take that?
    Lieutenant General Tovo. I'll take a stab at that, Senator, 
thanks.
    I'll tell you, as I talk to our operators and our soldiers 
in the field, morale is uniformly very good. They are stressed, 
they are working hard, but most of them are doing exactly what 
they signed up to do. If you told them tomorrow that they were 
not going to ever deploy again, I'd probably have some 
challenges on my hands, as far as long-term morale. They are 
doing what they came into our force to do.
    A great indicator of that is, we have phenomenal retention 
rates. People like what they're doing, they love being in the 
SOF family. And so, uniformly, both the soldiers and their 
families are happy with the environment that we have helped 
create, and I think we're in a pretty good place, for now.
    Senator Wicker. Yeah, it really takes your breath away that 
they step forward, knowing they've signed up for a very 
difficult task.
    Any reaction to the increased resources and the lifting of 
sequestration, or is that something they haven't zeroed in on?
    Lieutenant General Howell. Sir, I think, from the SOCOM 
perspective, we are very well resourcing. General Thomas has 
been consistent. Our budget continues to rise. We're still a 
small slice of the overall DOD. We still have an over-reliance 
on the Overseas Contingency Operations Fund, which doesn't 
allow us to modernize. That and the continuing resolutions make 
it difficult to modernize the force. So, that will be something 
we're interested in focusing on to improve our capability to 
focus on near-peer competitors.
    Rear Admiral Szymanski. Senator Wicker, I also don't think 
it's completely down at the deck-plate level yet, because the 
morale--because we are funded through SOCOM at the individual 
level really well for the things we do. But, where it has shown 
confidence--and I can indirectly talk to the fact of the 
interoperability, our warfighter talks with our service 
components, who, in effect, it may be more by sequestration, 
because we're--people-driven organization, where often there 
are platform-centric organizations. I was just talking about my 
priorities for interoperability with the Navy and ensuring my 
capabilities are compatible with the Navy's assets, capital 
assets. We're in great dialogue, and I think it's all an 
indicator of the budget, Presidential Budget recommendation.
    Senator Wicker. Well, you know, I appreciate your saying 
that. I would just say, you know, the--this--the Secretary of 
Defense says sequestration did, really, more damage over a few-
year period than an enemy could have done. Several of us took a 
pretty tough vote when it came to those budget numbers, and 
there's been--I think there's certainly a lot of concern, on 
the other side, of the fact that we do have a deficit and we 
are adding to the national debt. I think, on balance, the 
majority of Congress was persuaded by the words of our 
Secretary of Defense that we need to quit doing the--more 
damage than an enemy could have done. And so, I'm very 
satisfied with the fact that we took a tough vote and gave you 
the whole military $80 billion worth.
    Madam Chair, when I came in, Senator Heinrich was asking a 
specific question about Afghanistan. Who would like to take 
this question? It seems to me that the vast majority of the 
citizens of Afghanistan, across the tribal differences, 
appreciate our presence there, think we're about to win this 
thing, and want us to see it through. Am I correct there? Who 
could comment? Who is able to--General Howell, if you'd take 
that question.
    Lieutenant General Howell. Sir, one of--it's probably more 
appropriate for General Votel, the CENTCOM [United States 
Central Command] Commander. But, having served in Afghanistan 
as recently as last May, I can attest to what you state there. 
The confidence that the Afghans have, knowing that we're going 
to be there with them for the long term, really buoys their 
confidence. You can see it in the way they train, the way they 
come to work every day, and the way they fight. Not only the 
Afghan Special Security Forces that our operators train, 
advise, assist, and accompany, but, overall, the Afghans 
outside of the defense structure that I came in contact with. 
It's just one small picture from my personal point of view.
    Senator Wicker. Taliban's on the wane there.
    Lieutenant General Howell. Sir, I think they are. They're 
in a tough position right now.
    Senator Wicker. Thank you, Madam Chair.
    Senator Ernst. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Madam Chair.
    Thank you for--the panel, for your testimony today, and, 
more importantly, for your service to our country every day. We 
appreciate it.
    This committee is about emerging threats and emerging 
capabilities. I think an awful lot about, particularly, those 
emerging capabilities in terms of new technology and new 
innovation that's coming online. I'm very involved, for 
example, with self-driving cars, as--being the Senator from 
Michigan. This is technology that'll transform the way we get 
from point A to point B, but also really transform just about 
everything in our economy, as well. Certainly, the implications 
for warfare are equally as transformative as we move forward.
    Something that I discussed with Secretary Mattis was that 
we can't just be the leader in good technology. You have to 
match that with doctrine and tactics, as well. Specifically, in 
talking to Secretary Mattis, as a historian, who, in addition 
to being the Secretary of Defense, talked about the advantage 
the French had in tanks in World War II, but found themselves 
quickly outmatched by the German blitzkrieg that changed 
everything, despite the technological superiority.
    My question to all of you, because you are trying to figure 
out how to integrate some of these new technologies in very 
innovative ways, if you could talk a little bit about how 
that's going, what we need to do, and how some specific 
platforms you think are particularly promising that we need to 
support here, from--at the congressional level. Maybe if I 
could just go down the panel, it will be very helpful.
    Lieutenant General Webb. Senator, thanks very much for the 
question.
    I would agree with everything that--as you just laid it out 
right there. It is about technology, but it's also about 
concepts. From Air Force Special Operations standpoint, we kind 
of have a two-pronged approach, and it's, What can we do with 
our current systems that we have and--from a standpoint of 
additive capability, which we're still building out, some as 
we've transitioned a number of our airframes, but it's also 
about concepts for the usage of that. There is a concerted 
effort that we are doing, in conjunction with SOCOM and the Air 
Force, with Strategic Capabilities Office, DARPA [Defense 
Advanced Research Projects Agency], Air Force Research 
Laboratory, et cetera, to look at some new concepts and new 
technologies. Then there's the other leg of, what kind of game-
changing kind of technology could be applied in that next 
ridge-line out? Without getting into specifics in this forum, 
that's been the approach at AFSOC I'm very comfortable with.
    Senator Peters. Great.
    Lieutenant General Tovo. Senator, I think you hit the nail 
on the head. We've done very well, I think, over the years, on 
the incremental changes as new technology comes in to kind of 
take on what we're already doing, and do it a little bit 
better. About 5 years ago, USASOC stood up a futures staff 
section designed specifically to look a little deeper in time 
to understand the implications of technology, demographics, the 
changing nature of the security environment, in general, and 
then to understand, through a war-gaming process, how that 
might apply to us, particularly with scenarios against our 
current set of adversaries with the advent of new technologies, 
et cetera, so that we can derive those lessons. I would tell 
you that much of what we're doing in that deeper fight is 
trying to stay connected to industry and to the other experts 
in the field to understand where these technologies are moving 
to, not just tomorrow or next year, but what does it look like 
10 and 15 years into the future, so that we can develop the 
operational concepts, the doctrine, the techniques, et cetera, 
as the technology develops.
    Rear Admiral Szymanski. Senator, it's a great question. I 
think the--maybe a little different twist than my colleagues 
put it, very consistent with what they said, is--most of our 
organizations were founded to be innovative in concept and not 
technology. You go back to the history of SEALs and underwater 
demolition teams, and it was a innovative concept to how we 
clear beaches to allow amphibious assaults. We would do that 
much differently today, with the technology that we have.
    Secondly, to--without getting into some specific platforms; 
maybe we can talk in closed session--but we are making some 
great progress, some promising progress in the incorporation of 
AI [artificial intelligence] and machine learning, particularly 
in some of our processing and exploitation and dissemination, 
that will cut down analyst time. I think, as the CNO [Chief of 
Naval Operations] likes to talk about, the--and two of the 
rogue--or revisionist powers that are mentioned in the National 
Defense Strategy, both of their leaders have talked about the 
decision speed, and he who owns AI will be the master. I think 
we're in a race with this incorporation. It's important, I 
think, that we continue to press hard on the AI and machine 
learning.
    Senator Peters. Right. Right.
    Lieutenant General Mundy. Senator, our approach is twofold, 
kind of near term and far term. In near term, we approach it 
from an additive capability, take already existing programs and 
look to add some of this new technology into it. We have a very 
small capability development group in our organization, and 
it's one of the areas that we'd look to grow, here, going 
forward in the future.
    Our long-term view, I think, like everybody here, as we see 
that we're on the cusp of machine learning and AI and those 
sorts of things, how to get in front of that. We've also 
published a futures document that looks out about 12 years. 
It's conceptual and a vision right now. The next step for us 
would then be to really put some meat on the bones--we've now 
written a futures document--and to begin to develop innovation 
pathways that allow us to take some of those new technologies 
and apply them to our concept.
    Senator Peters. Great. Thank you. Appreciate it.
    Senator Ernst. Thank you, Senator Peters.
    Now, at this time, we will go ahead and recess. We will 
move to SVC-217, where we will go into closed session. Just a 
reminder, it will be a closed session. You must have the 
appropriate clearance to engage, in 217.
    With that, we will close--or, excuse me, recess, and we'll 
move to 217.
    Thank you.
    [Whereupon, at 11:01 a.m., the subcommittee adjourned.]

                                 [all]
</pre></body></html>
